APPENDICES

1a
APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0709n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Case No. 18-5380
[Stamp:] FILED
Dec 18, 2020
DEBORAH S. HUNT, Clerk
JOHN WAYNE COLLINS,
Petitioner-Appellant,
v.
JAMES DAVID GREEN, Warden,
Respondent-Appellee.
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF KENTUCKY

Before: MERRITT, MOORE, and GIBBONS, Circuit
Judges.
MERRITT, Circuit Judge. The sole issue in this appeal
from the denial of a habeas petition is defendant’s challenge to the Kentucky Supreme Court’s holding that
the state trial court violated his constitutional rights
when it joined two counts of murder, and denied his
motion to sever. There is no dispute that defendant
was involved in the killing of Stevie Collins, a shooting
witnessed by defendant’s girlfriend Christa Wilson and
others. Defendant claims “justification” for the killing

2a
based on his emotional state at the time, stemming
from his previous violent interactions with Stevie Collins. Forty days after Stevie’s murder, defendant’s
girlfriend Christa was also murdered. The government
contends that Christa was murdered by defendant to
silence her so she could not testify against him for the
murder of Stevie Collins. Defendant denied the charge,
and the evidence of his involvement in Christa’s murder is circumstantial.
Over defendant’s objection, the two murder charges were joined for trial and defendant was convicted of
both murders. A closely divided Kentucky Supreme
Court upheld his conviction 4-3, with the dissent arguing that the joinder was error because the two murders
were not sufficiently related to be properly joined,
thereby causing prejudice to defendant. In its ruling
denying defendant’s federal habeas petition, the district
court agreed with the dissent that the joinder of the
two murder charges was error, but it found that Collins
could not demonstrate that he was prejudiced by any
misjoinder. For the following reasons, we affirm the
judgment of the district court.
I.

Facts and Procedural History

The Kentucky Supreme Court summarized the
events leading to the conviction of defendant John Collins on two counts of murder as follows:
On October 10, 2004, Appellant and his girlfriend, Christa Wilson, were visiting Appellant’s
father, Harold Wayne Collins, and thenstepmother, April Sizemore Collins. Another
friend, Natasha Saylor, was also present. Everyone was on the porch of the home, visiting and
drinking, when Stevie Collins pulled into the

3a
driveway, exited his vehicle and approached the
porch. Stevie Collins extended an invitation for
them to accompany him to church, and Appellant’s father invited Stevie into the house. Appellant’s father then shot Stevie in the face,
whereupon Stevie fell to the floor and began
pleading for his life. Appellant told his father
that they could not let Stevie leave there. Appellant’s father agreed and instructed Appellant
to finish the job. Appellant retrieved his own
gun and shot Stevie seven or eight times more,
killing Stevie. A possible explanation for Stevie
Collins’s murder was revealed at trial when
witnesses, including Appellant’s uncle, Joe B.
Collins, testified that his brother, Appellant’s
developmentally disabled uncle, had been murdered and dismembered in 1997, and that it was
believed that Stevie Collins was responsible for
the uncle’s murder. After the shooting, the
group left in three different vehicles and met up
again at a relative’s house in Henry County,
where they continued to drink and sleep.
Meanwhile, police were dispatched to the murder scene. Kentucky State Police Sergeant,
John Yates, one of the investigating officers,
testified that one 9mm round was discovered on
the front porch and eight SKS rounds were
found in the yard on either side of the porch.
Later, when Appellant’s father was arrested, a
9mm handgun was retrieved from his vehicle.
Ammunition fitting the description of the ammunition retrieved from Stevie Collins’s body
was found in Appellant’s vehicle. However, lab
results on the weapons were inconclusive.

4a
Although Appellant’s girlfriend, Christa Wilson, Appellant’s stepmother, April Sizemore
Collins, and Natasha Saylor all repeatedly denied any knowledge of Stevie Collins’s murder
during the initial police investigation, both Natasha and April testified at trial to a substantially similar version of events, consistent with
the factual summary set out hereinabove. Both
also testified that they initially lied to the police because they had been threatened not to
speak of Stevie Collins’s shooting. April had
been threatened by her then-husband, Appellant’s father, while Natasha had been threatened by both Appellant and his father.
Forty days after Stevie Collins was murdered,
the body of Christa Wilson was found face
down in a creek. She died from a gunshot
wound to the head. Christa had last been seen
with Appellant. Paint that was discovered on a
rock near Christa’s body appeared to have been
the result of a vehicle scraping the rock, and
Appellant’s vehicle appeared to have been
damaged in the rear bumper area. A sample of
the paint was compared with a paint sample
taken from Appellant’s vehicle, the one he was
driving when Christa was last seen with him.
At trial, a forensic science specialist for the
Kentucky State Police … and a defense expert
witness testified concerning the results. The
[Kentucky State Police] specialist testified that
the paint layer from the rock sample was identical to the paint layer from Appellant’s vehicle
in all areas, i.e., color, type, structure, texture,
and elemental composition. The defense expert
testified that the substrata of the paint samples

5a
differed in thickness and that the bottom layer
did not match. For this reason, the defense expert disagreed that the paint samples were
identical, but he did admit that the paint samples were extremely similar. Further, the defense expert explained that paint layer thickness varies across each vehicle and, in fact, two
samples taken from Appellant’s vehicle varied
in thickness. He also testified that the difference in substrates could be the result of previous repairs made to the vehicle.
Ultimately, Appellant was tried and convicted
for both the murder of Stevie Collins and the
murder of Christa Wilson. Appellant had, initially, been indicted for Stevie Collins’s murder. While Appellant was awaiting trial on that
charge, he was indicted for the kidnapping and
murder of Christa Wilson. As a jury was being
selected for the Stevie Collins’s murder, the
Commonwealth moved to consolidate the two
cases.1 Over Appellant’s objection, the trial
court granted consolidation, but gave Appellant a continuance. The Commonwealth filed a
notice of intent to seek the death penalty based
1

The Commonwealth filed a motion to consolidate the two indictments, arguing that the offenses in both indictments were the
same in character and based upon the same acts, thereby constituting a common scheme or plan. The Commonwealth also argued
that Christa Wilson had been murdered because she was a witness
to the murder of Stevie Collins, and that her murder had been
committed in an attempt to cover up defendant’s role in Stevie
Collins’ murder. Over defendant’s objection, the trial court ordered the two indictments consolidated for trial, finding that the
offenses in both indictments “could have been joined in a single
indictment,” and that the charges involved in Christa Wilson’s
murder were directly related to Stevie Collins’ murder.

6a
upon intentional killing and multiple deaths.
Subsequently, Appellant moved to sever the offenses, arguing that his option to testify at trial
was compromised by joinder given his conflicting theories of defense. The trial court denied
the motion, concluding that evidence in each
case would presumably be admissible in the
other. As stated above, when an impartial jury
could not be seated in Clay County, the case
was transferred to the Warren Circuit Court.
Appellant renewed his motion to sever after
transfer, but the Warren Circuit Court also
concluded that joinder was appropriate, and
denied the motion to sever.
Collins v. Commonwealth, No. 2008-SC-000107, 2010
WL 2471839, *1-*2 (Ky. June 17, 2010) (as modified
Nov. 18, 2010). Because this habeas petition is governed by the Antiterrorism and Effective Death Penalty Act of 1996, the facts receive a presumption of correctness. 28 U.S.C. § 2254(e)(1).
The trial court sentenced defendant to life without
parole for a minimum of twenty-five years on each of
the two counts, to run concurrently. Defendant appealed directly to the Kentucky Supreme Court as a
matter of right, bypassing the Kentucky Court of Appeals. In his direct appeal to the Kentucky Supreme
Court, defendant raised four issues, including the issue
before the panel in this appeal: whether the trial court
denied defendant his constitutional rights through the
prejudicial joinder of the two murder charges. A divided Kentucky Supreme Court denied all of defendant’s
claims, narrowly upholding his conviction and sentence
by a margin of 4–3. Collins, 2010 WL 2471839, at *7.
The sole issue of disagreement between the majority
and the dissent concerned whether the joinder had

7a
been proper, with the dissent concluding that the government had not adequately demonstrated that the two
murders were sufficiently related to be joined for trial,
resulting in reversible error. Id. at *9.
Defendant then attacked his conviction collaterally
in state post-conviction proceedings. The trial court
denied his petition, and the Kentucky Court of Appeals
affirmed the trial court. Collins v. Commonwealth, No.
2011-CA-002105, 2013 WL 2257673 (Ky. Ct. App. May
24, 2013) (as modified July 26, 2013). The Supreme
Court of Kentucky denied discretionary review.
Defendant filed a habeas petition in federal court
pursuant to 28 U.S.C. § 2254, raising six claims, including the issue before us: whether defendant’s rights under the Fifth, Sixth, and Fourteenth Amendments
were violated when the trial court joined the two murder counts for trial. A magistrate judge issued a Report and Recommendation recommending that the petition be denied, but recommending that the misjoinder
issue be certified for appeal. Collins v. White, No. 1:15cv-00026, 2017 WL 8293274 (W.D. Ky. Nov. 14, 2017).
The government filed an objection to the Report and
Recommendation, arguing that a certificate of appealability should not be issued because there is no clearly
established Supreme Court precedent regarding denial
of a severance motion, and AEDPA therefore bars any
relief. Defendant also filed objections to the Report
and Recommendation, including an objection that the
Report and Recommendation failed to consider his
joinder claim under the proper federal standard. Defendant argued that the Report and Recommendation’s
reliance on United States v. Lane, 474 U.S. 438 (1986),
for its severance analysis was an error of law because
the Kentucky Supreme Court’s ruling relied not on
Lane, but solely on federal circuit court precedent. The

8a
district court overruled both parties’ objections to the
Report and Recommendation, and denied defendant’s
habeas petition, largely adopting the reasoning in the
Report and Recommendation. Collins v. Litteral, No.
1:15-cv-00026, 2018 WL 1440605 (W.D. Ky. Mar. 22,
2018). Only the joinder issue was certified for appeal.
II. Discussion
The sole issue on appeal is defendant’s challenge to
the Kentucky Supreme Court’s holding that the trial
court did not violate his constitutional rights under the
Fifth and Sixth Amendments when it denied his motion
to sever the two murder charges. Like the corresponding federal rule, the Kentucky rules governing joinder
of multiple offenses allow a single indictment if the offenses charged “are of the same or similar character or
are based on the same acts or transactions connected
together or constituting parts of a common scheme or
plan.” Ky. R. Crim. P. 6.18, 9.14; see also Fed. R. Crim.
P. 8(a). Misjoinder under these rules rises to the level
of a constitutional violation “if it results in prejudice so
great as to deny a defendant his Fifth Amendment
right to a fair trial.” Lane, 474 U.S. at 446 n.8. The
federal magistrate judge and the district court judge
both concluded that the initial decision by the Kentucky
trial court to join the two murder counts for a single
trial was error, but determined that defendant did not
show the necessary prejudice to warrant relief.
On appeal, defendant contends that his constitutional rights were violated because the alleged misjoinder prejudiced him in two substantial ways: (1) by forcing him to choose between his right to testify in his own
defense at trial on the Stevie Collins murder count
about his fear of, and history of violence with Collins,
and his constitutional right to remain silent concerning

9a
the murder of Christa Wilson, a case based on circumstantial evidence; and (2) causing a prejudicial “spillover” effect by combining the two murder counts for trial, with the jury concluding that guilt in one count inferred guilt as to the other, even in the absence of clear
and convincing evidence. Defendant argues that detached from the evidence of his involvement in the
murder of Stevie Collins, the jury would have been
more likely to see the weakness in the circumstantial
case against him for the murder of Christa Wilson. Defendant argues, therefore, that a reasonable probability
exists that the outcome would have been different if he
had received a separate trial for each count.
A. Review Under the Antiterrorism and Effective Death Penalty Act
AEDPA requires the habeas court to first determine whether the defendant has alleged a violation of a
federal constitutional right, and, if so, whether a state
court has adjudicated that claim on the merits. If both
requirements are met, then the federal courts must
employ the deferential standard of review set forth in
28 U.S.C. § 2254(d)2 to determine whether to grant the

2

Section 2254(d) provides as follows:

An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State
court shall not be granted with respect to any claim that
was adjudicated on the merits in State court proceedings
unless the adjudication of the claim—
(1) Resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established federal law, as determined by the Supreme Court of the United States; or

10a
petition. Williams v. Taylor, 529 U.S. 362, 367, 402-03,
412-13 (2000). Defendant argues that the Kentucky
Supreme Court did not adjudicate the denial of the severance motion on the merits because it failed to apply
the proper federal constitutional standard, and its decision, therefore, is not entitled to any deference under
AEDPA. Specifically, defendant contends that federal
law required the Kentucky Supreme Court to decide
“whether there was a reasonable probability that the
outcome of [defendant’s] trial would have been different but for the misjoinder … .” Reply Br. at 4. Defendant contends that the Kentucky Supreme Court
failed to undertake this required prejudice analysis.
We agree that the Kentucky Supreme Court’s analysis
was not conducted deliberately as a federal constitutional claim, but the Court nonetheless identified the
required prejudice standard when it said: “We review
the denial of a motion to sever for abuse of discretion,
and we will not grant relief unless the refusal to sever
prejudiced the defendant.” 2010 WL 2471839, at *3 (citations omitted). Citing to a mix of Kentucky and federal law, the Kentucky Supreme Court adequately analyzed the “actual prejudice” to defendant. The prejudice analysis was intertwined with language reviewing
the denial of the motion to sever pursuant to Kentucky
criminal procedure rules, which do not generally implicate federal constitutional issues, but the Kentucky Supreme Court recited and applied the prejudice standard
under federal law sufficiently to warrant labeling it an
“adjudication on the merits” for purposes of AEDPA.
While the Kentucky Supreme Court did not cite to a
United States Supreme Court case, the district court
(2) Resulted in a decision that was based on an unreasonable determination of facts in light of the evidence presented in the State court proceeding.

11a
correctly noted that defendant’s objection that the
Kentucky Supreme Court relied on federal circuit court
precedent rather than Lane is unavailing. The “failure
to cite specific Supreme Court precedent does not itself
render an opinion contrary to or an unreasonable application of clearly established federal law[,]” and the
Kentucky Supreme Court’s reasoning was consistent
with Lane’s prejudice standard. 2018 WL 1440608, at
*6 (citing Early v. Packer, 537 U.S. 3, 8 (2002) (a decision may well comport with clearly established law
while demonstrating no awareness of the relevant federal standard, so long as neither the state court’s reasoning nor its result contradicts federal law)). The
prejudice analysis done by the Kentucky Supreme
Court was consistent with Lane’s prejudice standard,
and sufficiently constituted an “adjudication on the
merits” under federal law, so its holding is entitled to
AEDPA deference on our review.
B. Prejudice
Turning to our review of the merits, we first note
that the United States Supreme Court has held that
misjoinder of offenses can cause prejudice amounting to
a violation of a defendant’s right to a fair trial under the
Fifth Amendment, but that “[i]mproper joinder does
not, in itself, violate the Constitution.” Lane, 474 U.S.
at 446 n.8, 449.3 The Court also recognized that joinder
3

The parties debate whether Lane is clearly established law
for purposes of AEDPA. Lane resolved a circuit split within the
courts of appeal as to whether misjoinder under the Federal Rules
of Criminal Procedure is “inherently prejudicial” or subject to
harmless error analysis. The Supreme Court concluded that misjoinder is subject to harmless error unless it results in actual prejudice; that is, whether a misjoinder “had substantial or injurious
effect or influence in determining the jury’s verdict.” Lane, 474
U.S. at 449 (quoting Kotteakos v. United States, 328 U.S. 750, 776

12a
of offenses serves to “‘conserve state funds, diminish
inconvenience to witnesses and public authorities, and
avoid delays in bringing those accused of crime to trial.’” Id. at 449 (quoting Bruton v. United States, 391
U.S. 123, 134 (1968)). The Court concluded, therefore,
that improper joinder only violates the Constitution “if
it results in prejudice so great as to deny a defendant
his Fifth Amendment right to a fair trial.” Lane, 474
U.S. at 446 n.8.
Defendant’s claim has two potential constitutional
implications based on actual prejudice affecting the
outcome of trial: (1) the failure to sever the charges put
in conflict defendant’s Sixth Amendment right to testify on his own behalf with his Fifth Amendment right to
remain silent; and (2) the joinder of the two charges
created prejudice so substantial as to deny him a fair
(1946)). The Court said in a footnote that “[i]mproper joinder does
not, in itself, violate the Constitution. Rather, misjoinder would
rise to the level of a constitutional violation only if it results in
prejudice so great as to deny defendant his Fifth Amendment
right to a fair trial.” 474 U.S. at 446 n.8. That any discussion of
this issue is even necessary seems based on two unpublished Sixth
Circuit opinions holding that the constitutional argument in Lane
was dicta. Tighe v. Berghuis, No. 16-2435, 2017 WL 4899833, at *2
(6th Cir. Apr. 21, 2017); Mayfield v. Morrow, 528 F. App’x 538, 542
(6th Cir. 2013). We have applied Lane in several published cases
to determine whether a habeas petitioner demonstrated that misjoinder resulted in prejudice so great as to deny the defendant a
fair trial. LaMar v. Houk, 798 F.3d 405, 428 (6th Cir. 2015); Coley
v. Bagley, 706 F.3d 741, 752 (6th Cir. 2013); Davis v. Coyle, 475
F.3d 761, 777 (6th Cir. 2007). Any suggestion that Lane does not
provide the clearly established law necessary to analyze whether
the defendant suffered prejudice sufficient to violate his Fifth
Amendment due process right to a fair trial is without foundation.
Without discussion, both the magistrate judge and the district
court judge relied on Lane as the relevant clearly established law,
and, like them, we follow the published opinions of this circuit.

13a
trial under the Fifth Amendment due to the “bad-acts
spillover” effect of combining two unrelated murder
charges, resulting in the likelihood that the jury would
fail to consider the evidence of defendant’s involvement
in each murder separately.
1. Prejudicial effect of forcing defendant to
choose between testifying or remaining silent
Defendant claims he was prejudiced by the joinder
when he was forced to choose between exercising his
Sixth Amendment right to testify in his own defense
regarding the Stevie Collins murder count, and his
Fifth Amendment right to remain silent on the Christa
Wilson murder count. Defendants are entitled to severance of charges where they can convincingly demonstrate they have both important testimony to offer on
one count and a strong need to refrain from testifying
on the other count. United States v. Bowker, 372 F.3d
365, 383-85 (6th Cir. 2004), as modified on other
grounds by 125 F. App’x 701 (6th Cir. 2005). Defendant
claims that he would have testified about his state of
mind, and that he wished to testify to support what he
calls a “justification” defense that included testimony
regarding whether Stevie Collins approached
Harold Collins’s home with a gun, whether
threats were made by Stevie Collins against
[defendant] in the weeks before the incident,
whether both Harold Collins and Stevie Collins
had fired shots prior to [defendant’s] involvement in the incident, and whether Stevie Collins had come to Harold Collins’s home with
what [defendant] believed to be an intent to do
harm. But [defendant] chose not to testify because he did not wish to be questioned on the
Christa Wilson charge.

14a
Defendant’s Opening Br. at 12. Defendant argues that
he had important testimony to give in the Stevie Collins
charge because while other witnesses could testify as to
the events they saw unfold in front of them, only defendant could provide testimony as to his state of mind.
Defendant contends that only he could explain fully to
the jury his state of mind regarding his knowledge of
Stevie’s violent reputation, including the killing and
dismembering of his uncle years before, and then seeing
Stevie arrive at the house with a gun and a liquor bottle.
Defendant says only he could explain the fear for his
own life and for the others on the premises. Defendant
also argues that at the very least, his testimony might
have persuaded the jury that he lacked the requisite
mental state for first-degree murder and it might have
settled on conviction of a lesser-included charge.
The Kentucky Supreme Court majority concluded
that defendant was not prejudiced by the joinder of the
two murder charges and the denial of defendant’s motion to sever, writing:
Throughout these proceedings, Appellant has
argued a particular manner in which he was
prejudiced by joinder of the charges; namely,
that his right to testify in his own defense was
compromised. While Appellant wished to testify in support of his claim of justification for
Stevie Collins’s murder, he wanted to invoke
his privilege not to testify in Christa Wilson’s
murder. This issue has not been much addressed in our cases. The federal courts, however, under their similar rules of joinder and
severance, have noted that, while courts zealously guard a defendant’s Fifth Amendment
right not to testify at all, “the case law is less
protective of a defendant’s right to testify se-

15a
lectively.” United States v. Fenton, 367 F.3d
14, 22 (1st Cir. 2004). A defendant who argues
for severance on the basis of selective testimony “must make a ‘persuasive and detailed
showing regarding the testimony he would give
on the one count he wishes severed and the
reason he cannot testify on the other counts.’”
United States v. McCarther, 596 F.3d 438, 443
(8th Cir. 2010) (quoting United States v.
Possick, 849 F.2d 332, 338 (8th Cir. 1988)). The
United States Circuit Court for the Sixth Circuit has held that severance is not required unless the defendant “‘makes a convincing showing that he has both important testimony to
give concerning one count and a strong need to
refrain from testifying on the other.’” United
States v. Bowker, 372 F.3d 365, 385 (6th Cir.
2004), vacated on other grounds, 543 U.S. 1182
(2005) (quoting United States v. Martin, 18
F.3d 1515, 1518-19 (10th Cir. 1994)). Otherwise,
“severance would be available to a defendant
virtually on demand.” Fenton, 367 F.3d at 23.
...
Here, [defendant] has not made a persuasive
and detailed showing of “compelling factors”
that would justify his selective testimony. He
has not shown that his testimony regarding
Stevie Collins’s murder was vital, as he was
able to assert his justification defense through
other witnesses who testified to the victim’s alleged involvement in the murder of [defendant’s] uncle. And he has made no showing of a
strong need to refrain from testifying with respect to Christa’s murder. See, e.g., Bowker,
supra, and McCarther, supra. The trial court

16a
did not abuse its discretion, therefore, by denying Appellant’s severance motion on the
ground of selective testimony.
2010 WL 2471839, at *3-*4. The district court agreed
with the Kentucky Supreme Court that defendant
failed to make the particularized showing of prejudice
required because he failed to demonstrate that he
would have provided critical testimony with respect to
his justification defense in the Stevie Collins murder
count. 2018 WL 1440605, at *6.
The question we face is how to arrive at the proper
balance between these two competing constitutional
rights. Case law addressing this issue is sparse. Cross
v. United States summarized the factors to be weighed
by a defendant forced to choose:
Prejudice may develop when an accused wishes
to testify on one but not the other of two joined
offenses which are clearly distinct in time, place
and evidence. His decision whether to testify
will reflect a balancing of several factors with
respect to each count: the evidence against him,
the availability of defense evidence other than
his testimony, the plausibility and substantiality of his testimony, the possible effects of demeanor, impeachment, and cross-examination.
But if the two charges are joined for trial, it is
not possible for him to weigh these factors separately as to each count. If he testifies on one
count, he runs the risk that any adverse effects
will influence the jury’s consideration of the
other count. Thus he bears the risk on both
counts, although he may benefit on only one.
Moreover, a defendant’s silence on one count
would be damaging in the face of his express

17a
denial of the other. Thus he may be coerced into testifying on the count upon which he wished
to remain silent.
335 F.2d 987, 989 (D.C. Cir. 1964) (footnotes omitted).
Applying the factors from Cross, there is no indication
in the instant case that defendant would have provided
testimony regarding Stevie Collins’ murder that could
not have been provided by other witnesses, including
testimony relating to Stevie’s violent reputation in the
community, and the killing of defendant’s uncle. Defendant’s theory was that he had nothing to do with
Christa Wilson’s murder, and he did not wish to testify,
which is what he opted to do. Because other witnesses
could have provided ample testimony on Stevie Collins’
reputation for violence and his past interactions with
defendant, we are not persuaded that the lack of defendant’s testimony about his state of mind at the time
of Stevie’s murder caused defendant prejudice. Defendant therefore has failed to show that his inability to
testify regarding his state of mind when he shot Stevie
Collins resulted in “prejudice so great as to deny [him]
his Fifth Amendment right to a fair trial.” Lane, 474
U.S. at 446 n.8.
2. Prejudicial effect of combining the direct evidence of defendant’s involvement in the murder of Stevie Collins with the circumstantial
case of his involvement in the Christa Wilson
murder
Defendant also claims he was prejudiced because
the largely uncontested facts regarding his substantial
involvement in Stevie Collins’ murder negatively influenced the jury in its assessment of the circumstantial
case supporting his involvement in Christa Wilson’s
murder. He makes the argument in the context of ar-

18a
guing that the joinder combined a “weak” case regarding his involvement in the murder of Christa with the
“stronger” case against him for the murder of Stevie
Collins. Defendant argues that detached from the
strong evidence that defendant was involved in the
murder of Stevie Collins, the jury would have had been
more likely to discern the weaknesses of the circumstantial evidence that the government put forth to connect defendant to Christa’s murder. In sum, defendant
maintains that the evidence against him for Christa’s
murder, presented in a separate trial, would have left
the jury with reasonable doubt of his guilt, and he likely
would have been acquitted of Christa’s murder.
The “sources of prejudice” in joinder arise because
the “jury may conclude that the defendant is guilty of
one crime and then finds him guilty of the other because of his criminal disposition.” Corbett v. Bordenkircher, 615 F.2d 722, 725 (6th Cir. 1980) (quoting United States v. Foutz, 540 F.2d 733, 736 (4th Cir. 1976)).
As we stated in Davis v. Coyle:
Without question, a risk of undue prejudice exists whenever joinder of counts permits introduction of evidence of other crimes that would
otherwise be inadmissible. By allowing joinder
of offenses, the possibility exists that a jury
may use the evidence of one of the charged
crimes to infer a general criminal disposition by
the defendant; the jury also may confuse or
cumulate the evidence of the various crimes
charges. The prejudice that [defendant] must
demonstrate, however, in order to justify a
grant of a writ of habeas corpus is actual prejudice, not merely the potential for prejudice.
475 F.3d at 777 (citations omitted).

19a
The Commonwealth claims that it sought to join
the two murder charges because “the offenses in both
indictments were the same in character and based upon
the same acts, constituting a common scheme or plan.”
The Commonwealth also stated that it believed that
Christa had been murdered because she was a witness
to the murder of Stevie Collins. Based on this representation, the trial court ordered the two indictments
to be consolidated for trial, stating that it believed that
the offenses in both indictments “could have been
joined in a single indictment” and that the charges involved in Christa’s murder were directly related to
Steve Collins’s murder.
In reviewing the trial court’s ruling, the Kentucky
Supreme Court majority assumed that the evidence of
defendant’s role in Stevie’s murder would have been
admissible in a separate trial for Christa and that the
circumstances of Christa’s murder would have been
admissible in a separate trial for Stevie’s murder:
Clearly, evidence of Stevie Collins’s murder
would have been admissible in a separate trial
of Christa Wilson’s murder, since the alleged
motive for the second murder was Appellant’s
desire to cover up the first murder by eliminating one who had witnessed it. KRE 404(b) (evidence of other bad acts is admissible to prove
motive.); Tucker v. Commonwealth, 916 S.W.2d
181 (Ky. 1996) (evidence that defendant had
shot a witness of a prior crime was admissible
to show that charged shooting was similarly
motivated.). Similarly, evidence of Christa’s
murder would have been admissible in a separate trial of Stevie Collins’s murder, since evidence that one has attempted to cover up a
crime is circumstantial proof of one’s conscious-

20a
ness of guilt regarding that crime. KRE 404(b)
(evidence of other bad acts is admissible to
prove intent.); Major v. Commonwealth, 177
S.W.3d 700 (Ky. 2005) (evidence that defendant
beat a potential witness was admissible as proof
of consciousness of guilt.); Foley v. Commonwealth, 942 S.W.2d 876, 887 (Ky. 1996) (“Any attempt to suppress a witness’ testimony … is evidence tending to show [a consciousness of]
guilt.”). The trial court did not abuse its discretion, therefore, by deeming the two murders
sufficiently related to be tried together.
Collins, 2010 WL 2471839, at *4.
The Kentucky Supreme Court acknowledged the
potential for undue prejudice where it wrote “[a] primary test for determining whether undue prejudice
will result from a joinder of offenses is whether evidence necessary to prove one offense would be admissible in a trial of the other offense.” Id. Despite acknowledging the standard, the admissibility analysis
undertaken by the Kentucky Supreme Court assumed
that the evidence of each murder would have been admissible in the other without undertaking a thorough
analysis of the basis for the trial court’s finding. In addition, the trial court judge did not give any limiting
instruction advising the jury to analyze the evidence
regarding each murder count separately to reduce the
danger of unfair prejudice.
The Kentucky Supreme Court dissent focused on
the lack of evidence supporting the government’s theory that defendant’s motivation for murdering Christa
was to silence her, and concluded that the two charges
should not have been joined. The dissent wrote, “The
Commonwealth’s theory is a mere possible explanation

21a
with no evidentiary link that connects together the two
murders. The murder of a young woman at the hands
of her boyfriend is, unfortunately, an all too common
occurrence and the proof that [defendant] did it is hardly dependant [sic] upon the motivation theorized by the
Commonwealth.” Id. at *8. The dissent concluded that
the logical extension of such reasoning would result in
the propriety of joinder hinging solely on whatever
theory the prosecution might cobble together before
trial to connect multiple offenses. The dissent concluded that defendant was deprived a fair trial as a result.
Id. at *8-*9.
Agreeing with the Kentucky Supreme Court dissent, the federal magistrate judge wrote, “[s]omething
obvious is missing from the Commonwealth’s statement. Proof.” 2017 WL 8293274, at *7. The magistrate
judge continued, “What is more disturbing, the Commonwealth never sought to prove these allegations at
trial, despite the fact that the only evidence linking [defendant] to the death of Christa Wilson was the paint
scraping found on a rock near the victim’s body that
closely matched the paint from [defendant’s] car and
circumstantial evidence involving [defendant’s] father
threatening witnesses of the Stevie Collins murder.”
Id. The magistrate judge concluded that the joinder
was “baseless” and may have deprived defendant of a
fair trial. Id. Despite this conclusion, the magistrate
judge found that defendant failed to make the particularized showing of prejudice required to succeed on this
claim, relying on Sixth Circuit precedent rejecting the
claim that the cumulative effect of multiple charges
may have led to his guilty verdict as to Christa Wilson’s
murder. Id. at *8. The magistrate judge stated that
although the Kentucky trial court may have erred in
joining the two indictments for trial, it is “not review-

22a
ing the trial court for the correctness of its decision, but
is instead concerned only with whether the failure to
sever amounted to an unreasonable application of clearly established federal law,” and concluded it did not. Id.
at *7. The district court agreed, and also noted that the
dissenting justices in the Kentucky Supreme Court
found the evidence sufficient to support defendant’s
conviction for Christa Wilson’s murder. 2018 WL
1440605, at *6.
Defendant’s argument that he was prejudiced when
the jury heard the incriminating evidence surrounding
defendant’s involvement in the murder of Stevie Collins
and considered it together with the arguably weaker,
circumstantial case against him for the murder of Christa is compelling. The fact that a curative instruction
was not given to the jury compounds the error. If this
were a case on direct appeal, it would present a very
close question. But, AEDPA compels us to give substantial deference to the Kentucky Supreme Court’s decision, and defendant has not surmounted that hurdle.
Conclusion
The Supreme Court has concluded that “a federal
habeas court may overturn a state court’s application of
federal law only if it is so erroneous that there is no
possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents.” Nevada v. Jackson, 569 U.S. 505, 508-09 (2013)
(per curiam) (internal quotation marks omitted) (quoting Harrington v. Richter, 562 U.S. 86, 101 (2011)).
Applying AEDPA deference, the Kentucky Supreme
Court’s decision must be more than “simply erroneous
or incorrect,” it must be “objectively unreasonable.”
Defendant has not met that standard, and for that reason we affirm the judgment of the district court.

23a
APPENDIX B
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
BOWLING GREEN DIVISION
JOHN WAYNE COLLINS,
Petitioner,
v.
KATHY LITTERAL, Warden,
Respondent.
CIVIL ACTION NO. 1:15-CV-00026-GNS-HBB
Filed March 22, 2018
MEMORANDUM OPINION AND ORDER
This matter is before the Court on the objections of
both Petitioner (DN 37) and Respondent (DN 34) to the
Magistrate Judge’s Findings of Fact, Conclusions of
Law, and Recommendation (“R. & R.”) (DN 33). For
the following reasons, the R. & R. is ADOPTED to the
extent not inconsistent with this opinion, and all objections are OVERRULED. Petitioner’s Petition for Writ
of Habeas Corpus (DN 1) is DISMISSED. A limited
Certificate of Appealability is GRANTED as to Ground
One, but DENIED as to Petitioner’s remaining claims.
I.

BACKGROUND

The Kentucky Supreme Court summarized the
events leading to Petitioner John Wayne Collins’ (“Petitioner” or “Appellant”) conviction and subsequent
pending petition for habeas corpus as follows:

24a
On October 10, 2004, Appellant and his girlfriend, Christa Wilson, were visiting Appellant’s father, Harold Wayne Collins, and thenstepmother, April Sizemore Collins. Another
friend, Natasha Saylor, was also present. Everyone was on the porch of the home, visiting
and drinking, when Stevie Collins pulled into
the driveway, exited his vehicle and approached the porch. Stevie Collins extended an
invitation for them to accompany him to
church, and Appellant’s father invited Stevie
into the house. Appellant’s father then shot
Stevie in the face, whereupon Stevie fell to the
floor and began pleading for his life. Appellant
told his father that they could not let Stevie
leave there. Appellant’s father agreed and instructed Appellant to finish the job. Appellant
retrieved his own gun and shot Stevie seven or
eight times more, killing Stevie. A possible explanation for Stevie Collins’s murder was revealed at trial when witnesses, including Appellant’s uncle, Joe B. Collins, testified that his
brother, Appellant’s developmentally disabled
uncle, had been murdered and dismembered in
1997, and that it was believed that Stevie Collins was responsible for the uncle’s murder.
After the shooting, the group left in three different vehicles and met up again at a relative’s
house in Henry County, where they continued
to drink and sleep.
Meanwhile, police were dispatched to the murder scene. Kentucky State Police Sergeant,
John Yates, one of the investigating officers,
testified that one 9mm round was discovered
on the front porch and eight SKS rounds were

25a
found in the yard on either side of the porch.
Later, when Appellant’s father was arrested, a
9mm handgun was retrieved from his vehicle.
Ammunition fitting the description of the ammunition retrieved from Stevie Collins’s body
was found in Appellant’s vehicle. However, lab
results on the weapons were inconclusive.
Although Appellant’s girlfriend, Christa Wilson, Appellant’s stepmother, April Sizemore
Collins, and Natasha Saylor all repeatedly denied any knowledge of Stevie Collins’s murder
during the initial police investigation, both Natasha and April testified at trial to a substantially similar version of events, consistent with
the factual summary set out hereinabove. Both
also testified that they initially lied to the police because they had been threatened not to
speak of Stevie Collins’s shooting. April had
been threatened by her then-husband, Appellant’s father, while Natasha had been threatened by both Appellant and his father.
Forty days after Stevie Collins was murdered,
the body of Christa Wilson was found face
down in a creek. She died from a gunshot
wound to the head. Christa had last been seen
with Appellant. Paint that was discovered on a
rock near Christa’s body appeared to have been
the result of a vehicle scraping the rock, and
Appellant’s vehicle appeared to have been
damaged in the rear bumper area. A sample of
the paint was compared with a paint sample
taken from Appellant’s vehicle, the one he was
driving when Christa was last seen with him.
At trial, a forensic science specialist for the
Kentucky State Police (KSP) and a defense ex-

26a
pert witness testified concerning the results.
The KSP specialist testified that the paint layer from the rock sample was identical to the
paint layer from Appellant’s vehicle in all areas, i.e., color, type, structure, texture, and elemental composition. The defense expert testified that the substrata of the paint samples differed in thickness and that the bottom layer did
not match. For this reason, the defense expert
disagreed that the paint samples were identical, but he did admit that the paint samples
were extremely similar. Further, the defense
expert explained that paint layer thickness varies across each vehicle and, in fact, two samples
taken from Appellant’s vehicle varied in thickness. He also testified that the difference in
substrates could be the result of previous repairs made to the vehicle.
Ultimately, Appellant was tried and convicted
for both the murder of Stevie Collins and the
murder of Christa Wilson. Appellant had, initially, been indicted for Stevie Collins’s murder. While Appellant was awaiting trial on that
charge, he was indicted for the kidnapping and
murder of Christa Wilson. As a jury was being
selected for the Stevie Collins’s murder, the
Commonwealth moved to consolidate the two
cases. Over Appellant’s objection, the trial
court granted consolidation, but gave Appellant a continuance. The Commonwealth filed a
notice of intent to seek the death penalty based
upon intentional killing and multiple deaths.
Subsequently, Appellant moved to sever the offenses, arguing that his option to testify at trial
was compromised by joinder given his conflict-

27a
ing theories of defense. The trial court denied
the motion, concluding that evidence in each
case would presumably be admissible in the
other. As stated above, when an impartial jury
could not be seated in Clay County, the case
was transferred to the Warren Circuit Court.
Appellant renewed his motion to sever after
transfer, but the Warren Circuit Court also
concluded that joinder was appropriate, and
denied the motion to sever.
Collins v. Commonwealth, No. 2008-SC-000107-MR,
2010 WL 2471839, at *1-2 (Ky. Nov. 18, 2010).1 Petitioner was convicted at trial and sentenced to life without parole for a minimum of twenty-five years on each
of the two counts. (Resp’t’s Answer Attach. 3, at 25-28,
DN 26-3). The Kentucky Supreme Court affirmed on
direct appeal by a 4-3 margin. Collins, 2010 WL
2471839, at *1, *7. After he sought relief under Ky. R.
Crim. P. 11.42, the Kentucky Court of Appeals affirmed
the Warren Circuit Court’s decision. Collins v. Commonwealth, No. 2011-CA-002105-MR, 2013 WL 2257673
(Ky. App. May 24, 2013). The Kentucky Supreme
Court denied Petitioner’s motion for discretionary review. (Resp’t’s Answer Attach. 6, at 138, DN 26-6).
Petitioner filed a Petition for Habeas Corpus in this
Court on six grounds. (Pet. Writ Habeas Corpus, DN 1
[hereinafter Pet.]). First, Petitioner argued that his
Fifth, Sixth, and Fourteenth Amendment rights were
violated by the trial court’s joinder of the two murder
counts and denial of his subsequent motions to sever.
(Pet. 5). Second, Petitioner alleged his Fourteenth
Amendment rights were violated when the trial court
1

These facts receive a presumption of correctness pursuant
to 28 U.S.C. § 2254(e)(1).

28a
refused to grant a mistrial following testimony from
Commonwealth witness Natasha Saylor (“Saylor”) regarding her assault. (Pet. 6). Third, Petitioner claimed
he was denied his Fourteenth Amendment right to due
process when the trial court allowed the Commonwealth to elicit prejudicial hearsay statements during
the testimony of April Collins. (Pet. 6). Fourth, Petitioner argued that his Fourteenth Amendment due
process rights were violated when the trial court permitted a testifying witness for the Commonwealth to
remain in the courtroom during all testimony, “permitting her to clean up the Commonwealth’s case by refuting the defense theory of justification/defense.” (Pet.
7). Fifth, Petitioner alleged he was denied his Sixth
Amendment rights because the Commonwealth’s opening statement included reference to Harold Collins’
statements regarding his invocation of the right to remain silent and request for an attorney, and Petitioner’s counsel’s failure to object further denied Petitioner
his Sixth Amendment rights. (Pet. 7). Sixth and finally, Petitioner claimed that his Sixth and Fourteenth
Amendment rights were violated when the Commonwealth introduced hearsay statements of Harold Collins through the testimony of Detective Yates, and Petitioner’s counsel’s failure to object further denied Petitioner his Sixth Amendment rights. (Pet. 9). On November 14, 2017, Magistrate Judge Brennenstuhl issued an R. & R. recommending dismissal of Petitioner’s
Petition on the merits of each of Petitioner’s claims, and
recommending the issuance of a limited certificate of
appealability as to Ground One, but denying the same
as to the remaining five claims. (R. & R. 27, DN 33).

29a
II. JURISDICTION
This Court has jurisdiction to “entertain an application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court”
pursuant to 28 U.S.C. § 2254(a).
III. STANDARD OF REVIEW
The Anti-Terrorism and Effective Death Penalty
Act, Pub. L. No. 104-132, 110 Stat. 1214 (1996) (“AEDPA”), applies to all habeas corpus petitions filed after
April 24, 1996, and requires “heightened respect” for
legal and factual determinations made by state courts.
See Herbert v. Billy, 160 F.3d 1131, 1134 (6th Cir. 1998).
Section 2254(d), as amended by AEDPA, provides:
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary
to, or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).
This is a “difficult to meet and highly deferential
standard … .” Cullen v. Pinholster, 563 U.S. 170, 181
(2011) (internal quotation marks omitted) (internal citation omitted) (citation omitted). Legal conclusions

30a
made by state courts are also given substantial deference under AEDPA. The Supreme Court has concluded that “a federal habeas court may overturn a state
court’s application of federal law only if it is so erroneous that there is no possibility fairminded jurists could
disagree that the state court’s decision conflicts with
this Court’s precedents.” Nevada v. Jackson, 133 S. Ct.
1990, 1992 (2013) (per curiam) (internal quotation
marks omitted) (quoting Harrington v. Richter, 562
U.S. 86, 101 (2011)).
When reviewing a magistrate judge’s report and
recommendation regarding a prisoner’s petition for a
writ of habeas corpus, “[a] judge … shall make a de novo determination of those portions of the report or
specified proposed findings or recommendations to
which objection is made.” 28 U.S.C. § 636(b)(1). A
reexamination of the exact same argument that was
presented to the Magistrate Judge without specific objections “wastes judicial resources rather than saving
them, and runs contrary to the purpose of the Magistrates Act.” Howard v. Sec’y of Health & Human
Servs., 932 F.2d 505, 509 (6th Cir. 1991); see also Manigaulte v. C.W. Post of Long Island Univ., 659 F. Supp.
2d 367, 372 (E.D.N.Y. 2009) (“[W]hen a party makes
only conclusory or general objections, or simply reiterates his original arguments, the Court reviews the Report and Recommendation only for clear error.” (internal quotation marks omitted) (citation omitted)). New
arguments raised for the first time in a petitioner’s objection to a magistrate judge’s report and recommendation are considered waived. See Murr v. United States,
200 F.3d 895, 902 n.1 (6th Cir. 2000). Courts have applied this general rule in the habeas corpus context.
See Brewer v. Bottom, No. 10-26-KSF, 2012 WL 404878,
at *8 (E.D. Ky. Feb. 8, 2012) (rejecting petitioner’s

31a
claim in habeas petition raised for the first time in objections to the report and recommendation and noting
that “[t]hese reasons alone are sufficient grounds to reject [the petitioner’s] objection.”).
IV. DISCUSSION
Petitioner and Respondent have both filed objections to the R. & R. (Resp’t’s Obj., DN 34; Pet’r’s Obj.,
DN 37). Each is addressed below.
A. Respondent’s Objection
The substituted Respondent, Kathy Litteral (“Respondent”), objects to the R. & R.’s recommendation
that a certificate of appealability issue as to Ground
One of the Petition. (Resp’t’s Obj. 1-7). The Respondent argues that the issue is not addressed by clearly
established Supreme Court precedent applicable to
state court trials, and Petitioner’s habeas petition must
therefore fail. (Resp’t’s Obj. 2-3). This attempt at a
merits argument as to Ground One misunderstands the
standard for the issuance of a certificate of appealability, which is simply whether reasonable jurists could
find the Court’s assessment of the constitutional claim
debatable or wrong. Slack v. McDaniel, 529 U.S. 473,
484 (2000). As discussed in the R. & R., the fact that
the Kentucky Supreme Court was narrowly split on
this issue demonstrates that reasonable jurists can and
did disagree, and that a limited certificate of appealability should thus issue. Respondent’s objection is therefore overruled.
B. Petitioner’s Objection
Petitioner objects on a number of grounds, each of
which is addressed in turn.

32a
1. Simmons and Lane
First, Petitioner objects that the Kentucky Supreme Court opinion and R. & R. failed to consider his
joinder claim under Simmons v. United States, 390 U.S.
377 (1968). (Pet’r’s Obj. 1-6). Petitioner argues that the
R. & R.’s use of United States v. Lane, 474 U.S. 438
(1986), for its analysis was an error of law, given that
the Kentucky Supreme Court’s ruling relied not on
Lane, but on circuit court precedent which he contends
is “contrary to and involving an unreasonable application of clearly established federal law” under Kernan v.
Cuero, 138 S. Ct. 4, 9 (2017). (Pet’r’s Obj. 3).
As the R. & R. quoted, the Kentucky Supreme
Court’s opinion addressed Petitioner’s related joinder
and severance arguments as follows:
Throughout these proceedings, Appellant has
argued a particular manner in which he was
prejudiced by joinder of the charges; namely,
that his right to testify in his own defense was
compromised. While Appellant wished to testify in support of his claim of justification for
Stevie Collins’s murder, he wanted to invoke
his privilege not to testify in Christa Wilson’s
murder. This issue has not been much addressed in our cases. The federal courts, however, under their similar rules of joinder and
severance, have noted that, while courts zealously guard a defendant’s Fifth Amendment
right not to testify at all, “the case law is less
protective of a defendant’s right to testify selectively.” United States v. Fenton, 367 F.3d
14, 22 (1st Cir. 2004). A defendant who argues
for severance on the basis of selective testimony “must make a ‘persuasive and detailed

33a
showing regarding the testimony he would give
on the one count he wishes severed and the
reason he cannot testify on the other counts.’”
United States v. McCarther, 596 F.3d 438, 443
(8th Cir. 2010) (quoting United States v.
Possick, 849 F.2d 332, 338 (8th Cir. 1988)). The
United States Circuit Court for the Sixth Circuit has held that severance is not required unless the defendant “‘makes a convincing showing that he has both important testimony to
give concerning one count and a strong need to
refrain from testifying on the other.’” United
States v. Bowker, 372 F.3d 365, 385 (6th Cir.
2004), vacated on other grounds, 543 U.S. 1182,
125 S. Ct. 1420, 161 L.Ed.2d 181 (2005) (quoting
United States v. Martin, 18 F.3d 1515, 1518-19
(10th Cir. 1994)). Otherwise, “severance would
be available to a defendant virtually on demand.” Fenton, 367 F.3d at 23.
This Court reached a similar conclusion in Owens v. Commonwealth, 572 S.W.2d 415, 416
(Ky. 1977):
[Defendant] argues that he was confounded in his defense for the reason
he wished to testify as to one charge,
but not the others. … This argument
in the absence of other compelling factors ordinarily is not sufficient to warrant a severance. Otherwise, it would
have the effect of nullifying the provisions of RCr 9.12, consolidation of offenses for trial.
Here, Appellant has not made a persuasive and
detailed showing of “compelling factors” that

34a
would justify his selective testimony. He has
not shown that his testimony regarding Stevie
Collins’s murder was vital, as he was able to assert his justification defense through other
witnesses who testified to the victim’s alleged
involvement in the murder of Appellant’s uncle.
And he has made no showing of a strong need
to refrain from testifying with respect to Christa’s murder. See, e.g., Bowker, supra, and
McCarther, supra. The trial court did not
abuse its discretion, therefore, by denying Appellant’s severance motion on the ground of selective testimony.
Nor was severance required on the ground that
the two murders were not sufficiently related.
A primary test for determining whether undue
prejudice will result from a joinder of offenses
is whether evidence necessary to prove one offense would be admissible in a trial of the other
offense. Roark v. Commonwealth, [90 S.W.3d
24 (Ky. 2002)]. As noted, a trial court’s decision
to join offenses related in this way will not be
disturbed absent an abuse of discretion.
Debruler v. Commonwealth, [231 S.W.3d 752
(Ky. 2007)]; Roark, supra. We agree with the
Commonwealth that there was no abuse of discretion here, because the two murders were
based on “transactions connected together.”
RCr 6.18.1. Clearly, evidence of Stevie Collins’s murder would have been admissible in a
separate trial of Christa Wilson’s murder, since
the alleged motive for the second murder was
Appellant’s desire to cover up the first murder
by eliminating one who had witnessed it. KRE
404(b) (evidence of other bad acts is admissible

35a
to prove motive); Tucker v. Commonwealth,
916 S.W.2d 181 (Ky. 1996) (evidence that defendant had shot a witness of a prior crime was
admissible to show that charged shooting was
similarly motivated.). Similarly, evidence of
Christa’s murder would have been admissible
in a separate trial of Stevie Collins’s murder,
since evidence that one has attempted to cover
up a crime is circumstantial proof of one’s consciousness of guilt regarding that crime. KRE
404(b) (evidence of other bad acts is admissible
to prove intent.); Major v. Commonwealth, 177
S.W.3d 700 (Ky. 2005) (evidence that defendant
beat a potential witness was admissible as
proof of consciousness of guilt.); Foley v. Commonwealth, 942 S.W.2d 876, 887 (Ky. 1996)
(“Any attempt to suppress a witness’ testimony … is evidence tending to show [a consciousness of] guilt.”). The trial court did not abuse
its discretion, therefore, by deeming the two
murders sufficiently related to be tried together.
Collins, 2010 WL 2471839, at *3-4.
The R. & R. used Lane to analyze whether the
joinder of Petitioner’s two charges created prejudice so
substantial as to deny Petitioner a fair trial under the
Fifth Amendment. (R. & R. 9-14). The Magistrate
Judge concluded that Petitioner “failed to make the
particularized showing of prejudice required to succeed
on this claim[,]” and recommended denying the claim,
but to issue a limited certificate of appealability on the
issue, given the divided Kentucky Supreme Court opinion on the matter. (R. & R. 13-14).

36a
Petitioner’s argument that Simmons was the correct standard rather than Lane is unfounded. Lane
represents the proper Supreme Court precedent under
which to analyze the precise joinder question presented
in Petitioner’s case, and the Magistrate Judge correctly
undertook the harmless error analysis provided in Lane
to determine whether any reversible error took place.
(R. & R. 10-13). Petitioner’s remaining objection that
the Kentucky Supreme Court relied on circuit court
precedent rather than Lane is likewise unavailing because the “failure to cite specific Supreme Court precedent does not itself render an opinion contrary to or an
unreasonable application of clearly established federal
law[,]” and the Kentucky Supreme Court’s reasoning
was consistent with Lane’s harmless error standard.
(R. & R. 10-11 (citing Early v. Packer, 537 U.S. 3, 8
(2002))). The Court agrees that Petitioner failed to
make the particularized showing of prejudice required
to succeed on this claim, as the Sixth Circuit has rejected the claim that the cumulative effect of multiple
charges may have led to his guilty verdict as to Christa
Wilson’s murder, and even the dissenting justices in Petitioner’s appeal found the evidence sufficient to support
Petitioner’s conviction. (R. & R. 13 (citing United
States v. Saadey, 393 F.3d 669, 678 (6th Cir. 2005))). Petitioner’s first objection is therefore overruled.
2. Maricle Detention Hearing
Petitioner next objects that the Magistrate Judge
made an error of law by refusing to take judicial notice
of a detention hearing transcript (“DHT”) relating to a
conspiracy he alleges occurred involving the judge who

37a
granted joinder of his trials. (Pet’r’s Obj. 6-10).2 The
Court has reviewed the statements in the DHT cited by
Petitioner, but does not agree that an evidentiary hearing is necessary under 28 U.S.C. § 2254(e)(2). Tr. Detention Hr’g, United States v. Maricle, No. 6:09-CR00016-KKC-REW-1, DN 170. Even given the statements made and assuming the truth of the conclusions
Petitioner has drawn, the Magistrate Judge made a full
merits analysis of the interrelated constitutional questions Petitioner raised regarding joinder and severance, and found no objectively unreasonable application
of clearly established federal law. (R. & R. 7-14). Petitioner’s assertions regarding the alleged corruption of
Judge Maricle—who ordered joinder of Petitioner’s
cases, but was replaced by the time Petitioner’s motions for severance were considered—do not impact the
validity of that analysis.
3. Limited Certificate of Appealability
Petitioner further objects that the Magistrate
Judge recommended that only a limited certificate of
appealability issue. (Pet’r’s Obj. 10-12). He argues that
his earlier argument as to Simmons and Lane mandates a broader certificate of appealability which encompasses:
1.

2

Whether the Supreme Court decision is
contrary to Simmons regarding Collins’ being forced to make a Hobson’s Choice between his Fifth and Sixth Amendment

Petitioner failed to include such a transcript in the record
before the Court. Petitioner stated that he “cannot attach a complete copy … of the DHT in U.S. v. Miracle [sic], [but] he cordially
invites this Court, as he did the Sixth Circuit to read the entire
DHT … .” (Pet’r’s Reply Resp’t’s Answer 35, DN 31). The reason
for his failure to attach the transcript is unclear.

38a
rights by the improper joinder of the two
cases.
2.

Whether the Supreme Court decision is
owed any deference in light of the fact that
it stands in contrary to the clearly established law of Kernan/Glebe regarding the
impermissible use of circuit court precedent.

3.

Whether the Supreme Court decision is
owed any deference in light of Collins’
presentation of [detention hearing transcript] facts from U.S. v. Miracle [sic] pursuant to his demand under FRE 201 for
those facts to be judicially noticed.

4.

Whether in light of the presentation of the
facts from the [detention hearing transcript] was Collins entitled to an evidentiary hearing under Schiro/Paprocki.

(Pet’r’s Obj. 12).
As explained above, each of Petitioner’s contentions is unpersuasive, and does not meet the threshold
required for a certificate of appealability to issue.
Slack, 529 U.S. at 484. Petitioner’s objection is therefore overruled.
4. Saylor Testimony
Petitioner again objects to the R. & R.’s use of circuit court precedent, this time as the basis for a merits
ruling as to the admission of the Saylor testimony on
cross-examination by Petitioner’s counsel regarding
her assault. (Pet’r’s Obj. 13-18). He argues that the
Kentucky Supreme Court’s decision and R. & R. made
light of Saylor’s testimony by “dismissing it without
consideration of the prejudicial impact it likely had up-

39a
on the jury as a whole, despite Chapman requiring a
determination … ‘whether the error was harmless beyond a reasonable doubt,’” which he contends was not
conducted. (Pet’r’s Obj. 16 (citing Chapman v. California, 386 U.S. 18, 24 (1962))).
Petitioner’s argument is unsound, as the alternative to not applying circuit court precedent in this case
would be that there is no clearly established federal law
under which Petitioner could bring a habeas claim. The
R. & R.’s use of Sixth Circuit precedent, including
Zuern v. Tate, 336 F.3d 478, 485 (6th Cir. 2003), and
United States v. Forrest, 17 F.3d 916, 921 (6th Cir.
1994), represented a generous interpretation of Petitioner’s claim. The Court agrees with the Magistrate
Judge’s analysis under Zuern and Forest that Saylor’s
testimony was unsolicited and took place on defense’s
cross-examination, that defense counsel declined a limiting instruction, that Petitioner has not presented any
evidence of bath faith by the prosecution, and that the
testimony was only a small portion of the evidence
against Petitioner. (R. & R. 15-16). Petitioner’s objection is therefore overruled.
5. April Collins’ Testimony
Petitioner next objects to “any mischaracterization” on page 18 of the R. & R. that April Collins’ “testimony was to explain only her initial denials that she
had been a witness to the murder.” (Pet’r’s Obj. 18-19).
He argues that her testimony was “directly calculated”
to give “‘circumstantial support’ to the Commonwealth’s theory that [Petitioner] had killed Wilson to
silence her about the murder,” and should have been
reviewed under Crawford v. Washington, 541 U.S. 36
(2004) and Chapman as the applicable clearly established law. (Pet’r’s Obj. 19).

40a
In fact, the R. & R. did utilize Crawford to analyze
this issue, and Chapman’s “harmless beyond a reasonable doubt” language is inapplicable, as explained
above. (R. & R. 17). Again, the Magistrate Judge’s use
of Sixth Circuit precedent was undertaken to liberally
construe Petitioner’s claim, and operated to allow an
analysis on the merits rather than foreclosing the claim
entirely under AEDPA. The Court agrees with the
analysis in the R. & R. under Anthony v. Dewitt, 295
F.3d 554, 563 (6th Cir. 2002), that April Collins’ testimony was properly admitted and was not an unreasonable application of clearly established federal law. (R.
& R. 17-19). Petitioner’s objection is thus overruled.
6. Withdrawal of Ground Four
Petitioner objects that the R. & R. improperly undertook a merits analysis of Ground Four, given that he
withdrew the claim in an earlier filing. (Pet’r’s Obj. 1920; Pet’r’s Reply 52, DN 31). He argues that this
“clearly demonstrates that the Magistrate did not even
look at Collins’ Reply … but elected instead to cut and
paste the portion from the Supreme Court decision and
add his own inconsequential remarks.” (Pet’r’s Obj. 1920). Petitioner asks on this basis that the entire R. &
R. be rejected, because the Magistrate Judge “clearly
failed to give due consideration to Collins’ Reply … .”
(Pet’r’s Obj. 20).
Notwithstanding that the Magistrate Judge liberally construed all of Petitioner’s claims to ensure an analysis on the merits of all grounds, the Court also notes
that the Magistrate Judge did not elect to strike Petitioner’s 69-page reply and order a reply within the limits to be refiled. LR 7.1 (“Replies may not exceed 15
pages without leave of Court.”). Although the R. & R.’s
analysis of Ground Four was superfluous in light of Pe-

41a
titioner’s withdrawal of that claim in his Reply, the
Court finds this to have been a mere oversight which
does require the remainder of the R. & R. be rejected.
The Court acknowledges Petitioner’s withdrawal of his
fourth ground in his Petition, but otherwise overrules
his objection.
7. Crawford and Strickland
Petitioner next objects that the fifth and sixth
grounds from his Petition were improperly considered
under Griffin v. California, 380 U.S. 609 (1965), rather
than Crawford, and argues that because the Kentucky
Court of Appeals never addressed his Crawford claim,
the R. & R.’s conclusion that Petitioner failed to establish a Strickland violation is erroneous. (Pet’r’s Obj.
20-29). Petitioner, however, acknowledged the applicability of Griffin in his Reply, and cannot alter his position at this stage. (Pet’r’s Reply 55, 58); See Murr, 200
F.3d at 902 n.1. The Court agrees with the analysis
conducted by the Magistrate Judge, and overrules Petitioner’s objection.
8. Certificate of Appealability as to Grounds

Two, Three, Five, and Six
Finally, Petitioner requests that a certificate of appealability issue as to his remaining grounds. (Pet’r’s
Obj. 29-30). The Court, however, agrees with the Magistrate Judge that Petitioner has failed to demonstrate
debatable or incorrect conclusions on the merits of Petitioner’s claims apart from the limited question in
Ground One discussed above. The Court thus overrules
Petitioner’s objection and denies a certificate of appealability as to Grounds Two, Three, Five, and Six of the
Petition.

42a
V. CONCLUSION
For the foregoing reasons, IT IS HEREBY ORDERED as follows:
1. Respondent’s Objection to the Magistrate
Judge’s Findings of Fact, Conclusions of Law, and
Recommendation (DN 34) is OVERRULED;
2. Petitioner’s Objection to the Magistrate
Judge’s Findings of Fact, Conclusions of Law, and
Recommendation (DN 37) is OVERRULED;
2. The Magistrate Judge’s Findings of Fact,
Conclusions of Law, and Recommendation (DN 33)
are ADOPTED to the extent not inconsistent with
this opinion;
3. Petitioner’s Petition for Habeas Relief (DN
1) is DISMISSED;
4. The issuance of a limited certificate of appealability pursuant to 28 U.S.C. § 2253(c) and Fed.
R. App. P. 22(b) is GRANTED as to Petitioner’s
first ground, to allow Petitioner to appeal the issue
of whether the trial court’s refusal to sever the two
charged offenses had a “substantial and injurious
effect or influence in determining the jury’s verdict” under Lane, 474 U.S. at 449. A certificate of
appealability is DENIED as to Petitioner’s remaining arguments.
[Seal/electronic signature]
Greg N. Stivers, Judge
United States District Court
March 22, 2018
cc: counsel of record
John Wayne Collins, pro se

43a
APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
BOWLING GREEN DIVISION
JOHN WAYNE COLLINS,
Petitioner,
v.
RANDY WHITE, Warden,
Respondent.
CIVIL ACTION NO. 1:15-CV-00026-GNS
Filed November 14, 2017
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND RECOMMENDATION
This matter is before the Court on the pro se petition for writ of habeas corpus filed pursuant to 28
U.S.C. § 2254 by John Wayne Collins (“Petitioner”)
(DN 1). The Respondent, Warden Randy White, filed a
response (DN 26). Petitioner replied (DN 31). The
District Judge referred this case to the undersigned
Magistrate Judge pursuant to 28 U.S.C. § 636(b)(l)(A)
and (B) for rulings on all non-dispositive motions, for
appropriate hearings, if necessary, and for findings of
fact and recommendation on any dispositive matters
(DN 24). Collins’ petition is now ripe for recommendation. For the reasons set forth below, it is recommended that the petition be denied.

44a
FINDINGS OF FACT
The Kentucky Supreme Court summarized the
events leading to Petitioner’s conviction and ultimately
to this petition as follows:
On October 10, 2004, Appellant and his girlfriend, Christa Wilson, were visiting Appellant’s father, Harold Wayne Collins, and thenstepmother, April Sizemore Collins. Another
friend, Natasha Saylor, was also present. Everyone was on the porch of the home, visiting
and drinking, when Stevie Collins pulled into
the driveway, exited his vehicle and approached the porch. Stevie Collins extended an
invitation for them to accompany him to
church, and Appellant’s father invited Stevie
into the house. Appellant’s father then shot
Stevie in the face, whereupon Stevie fell to the
floor and began pleading for his life. Appellant
told his father that they could not let Stevie
leave there. Appellant’s father agreed and instructed Appellant to finish the job. Appellant
retrieved his own gun and shot Stevie seven or
eight times more, killing Stevie. A possible explanation for Stevie Collins’s murder was revealed at trial when witnesses, including Appellant’s uncle, Joe B. Collins, testified that his
brother, Appellant’s developmentally disabled
uncle, had been murdered and dismembered in
1997, and that it was believed that Stevie Collins was responsible for the uncle’s murder.
After the shooting, the group left in three different vehicles and met up again at a relative’s
house in Henry County, where they continued
to drink and sleep.

45a
Meanwhile, police were dispatched to the murder scene. Kentucky State Police Sergeant,
John Yates, one of the investigating officers,
testified that one 9mm round was discovered
on the front porch and eight SKS rounds were
found in the yard on either side of the porch.
Later, when Appellant’s father was arrested, a
9mm handgun was retrieved from his vehicle.
Ammunition fitting the description of the ammunition retrieved from Stevie Collins’s body
was found in Appellant’s vehicle. However, lab
results on the weapons were inconclusive.
Although Appellant’s girlfriend, Christa Wilson, Appellant’s stepmother, April Sizemore
Collins, and Natasha Saylor all repeatedly denied any knowledge of Stevie Collins’s murder
during the initial police investigation, both Natasha and April testified at trial to a substantially similar version of events, consistent with
the factual summary set out hereinabove. Both
also testified that they initially lied to the police because they had been threatened not to
speak of Stevie Collins’s shooting. April had
been threatened by her then-husband, Appellant’s father, while Natasha had been threatened by both Appellant and his father.
Forty days after Stevie Collins was murdered,
the body of Christa Wilson was found face
down in a creek. She died from a gunshot
wound to the head. Christa had last been seen
with Appellant. Paint that was discovered on a
rock near Christa’s body appeared to have been
the result of a vehicle scraping the rock, and
Appellant’s vehicle appeared to have been
damaged in the rear bumper area. A sample of

46a
the paint was compared with a paint sample
taken from Appellant’s vehicle, the one he was
driving when Christa was last seen with him.
At trial, a forensic science specialist for the
Kentucky State Police (KSP) and a defense expert witness testified concerning the results.
The KSP specialist testified that the paint layer from the rock sample was identical to the
paint layer from Appellant’s vehicle in all areas, i.e., color, type, structure, texture, and elemental composition. The defense expert testified that the substrata of the paint samples differed in thickness and that the bottom layer did
not match. For this reason, the defense expert
disagreed that the paint samples were identical, but he did admit that the paint samples
were extremely similar. Further, the defense
expert explained that paint layer thickness varies across each vehicle and, in fact, two samples
taken from Appellant’s vehicle varied in thickness. He also testified that the difference in
substrates could be the result of previous repairs made to the vehicle.
Ultimately, Appellant was tried and convicted
for both the murder of Stevie Collins and the
murder of Christa Wilson. Appellant had, initially, been indicted for Stevie Collins’s murder. While Appellant was awaiting trial on that
charge, he was indicted for the kidnapping and
murder of Christa Wilson. As a jury was being
selected for the Stevie Collins’s murder, the
Commonwealth moved to consolidate the two
cases. Over Appellant’s objection, the trial
court granted consolidation, but gave Appellant a continuance. The Commonwealth filed a

47a
notice of intent to seek the death penalty based
upon intentional killing and multiple deaths.
Subsequently, Appellant moved to sever the offenses, arguing that his option to testify at trial
was compromised by joinder given his conflicting theories of defense. The trial court denied
the motion, concluding that evidence in each
case would presumably be admissible in the
other. As stated above, when an impartial jury
could not be seated in Clay County, the case
was transferred to the Warren Circuit Court.
Appellant renewed his motion to sever after
transfer, but the Warren Circuit Court also
concluded that joinder was appropriate, and
denied the motion to sever.
Collins v. Commonwealth, No. 2008-SC-000107-MR,
2010 WL 2471839, *1-*2 (Ky. Nov. 18, 2010).1
The trial court entered judgment and sentence on
Collins’ plea of not guilty, sentencing him to life without
parole for a minimum of twenty-five years on each of
the two counts (DN 26-3 at PageID # 250-53). Collins
appealed to the Kentucky Supreme Court as a matter
of right. Collins, 2010 WL 2471839, at *l. On appeal,
Collins raised four issues: the trial court denied Petitioner due process through the prejudicial joinder of
offenses (DN 2604 at PageID # 255); the trial court denied Petitioner due process when the trial judge failed
to declare a mistrial following a statement by witness
Natasha Saylor that she had previously been assaulted
(DN 26-4 at PageID # 257); the trial court committed
reversible error by allowing into evidence certain hear1

These facts receive a presumption of correctness pursuant
to 28 U.S.C. § 2254(e)(1).

48a
say statements by Harold Wayne Collins Sr. (DN 26-4
at PageID # 258); and the trial court denied Petitioner
due process when Stevie Collins’ wife, Donna Collins,
was allowed to stay in the courtroom as a victim’s advocate during the trial despite Petitioner’s objections
(Id.). The Kentucky Supreme Court denied all of these
claims and upheld Petitioner’s sentences by a four-tothree margin. Collins, 2010 WL 2471839, at *7.
Collins next attacked his conviction collaterally
through a Kentucky RCr 11.42 motion, which the trial
court denied (DN 26-5 at PageID # 482-85). The Kentucky Court of Appeals affirmed the trial court. Collins v. Commonwealth, No. 2011-CA-002105-MR, 2013
WL 2257673 (Ky. Ct. App. May 24, 2013) (as modified
July 26, 2013). The Supreme Court of Kentucky denied
discretionary review on December 11, 2013 (DN 26-6 at
PageID # 625).
Now, Petitioner has presented six claims alleging
constitutional violations. First, Petitioner alleges violations of his Fifth, Sixth, and Fourteenth Amendment
rights where the trial court refused to sever the two
murder counts (DN 1 at PageID # 5). Second, Petitioner argues his Fourteenth Amendment rights were violated where the trial court refused to grant a mistrial
following Commonwealth witness Natasha Saylor’s testimony that she had been previously assaulted (DN 1 at
PageID # 6). Petitioner argues the Commonwealth improperly used this to bolster its theory that Petitioner
killed Christa Wilson to silence her regarding the murder of Stevie Collins (DN 1 at PageID # 6). Third, Petitioner argues his Fourteenth Amendment rights were
violated when the trial court allowed the introduction
of the hearsay statements of Harold Collins, through
April Collins, that Harold and Petitioner were working
in concert to ensure the silence of the witnesses of Ste-

49a
vie Collins’ murder (DN 1 at PageID # 6). Fourth, Petitioner argues his Fourteenth Amendment rights were
violated where the trial court refused to sequester a
witness before she testified (DN 1 at PageID # 7).
Fifth, Petitioner argues his Sixth and Fourteenth
Amendment rights were violated when trial counsel
failed to object during the prosecution’s opening statement when the Commonwealth mentioned that Harold
Collins had invoked his right to remain silent and requested an attorney (DN 1 at PageID # 7). And finally,
Petitioner argues his Sixth and Fourteenth Amendment rights were violated when trial counsel failed to
object to the prosecution’s questioning of Detective
Yates regarding Harold Collins’ decision to stay silent
(DN 1 at PageID # 9).
DISCUSSION
A. Standard of Review
Because Collins filed his petition for writ of habeas
corpus on February 27, 2015, review of the State court
decisions is governed by Chapter 153 of the Antiterrorism and Effective Death Penalty Act of 1996,
Pub.L.No. 104-132, 110 Stat. 1214 (1996) (“AEDPA”).
Lindh v. Murphy, 521 U.S. 320, 336 (1997). Under
AEDPA, as to each asserted claim, the Court must first
determine whether a federal Constitutional right has
been violated. Williams v. Taylor, 529 U.S. 362, 367
(2000). If the answer is in the affirmative, and the
State court adjudicated the federal Constitutional claim
on its merits, then this Court must employ the standard
of review set forth in 28 U.S.C. § 2254(d) to determine
whether to grant the petition. Williams, 529 U.S. at
367, 402-403, 412-13. As amended, by Chapter 153 of
AEDPA, § 2254(d) provides as follows:

50a
An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) Resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United
States; or
(2) Resulted in a decision that was based on an
unreasonable determination of facts in light
of the evidence presented in the State
court proceeding.
The phrase “contrary to” means “‘diametrically different,’ ‘opposite in character or nature,’ or ‘mutually
opposed.”‘ Williams, 529 U.S. at 405 (quoting Webster’s Third New International Dictionary 495 (1976)).
Thus, under the “contrary to” clause of§ 2254(d)(l), the
Court may grant the petition if (a) the state court arrives at a conclusion opposite to that reached by the
Supreme Court on a question of law; or (b) the state
court decides a case differently than the Supreme
Court “has on a set of materially indistinguishable
facts.” Williams, 529 U.S. at 412-413.
Under the “unreasonable application” clause of
§ 2254(d)(l), the Court may grant the petition if the
State court identifies the correct governing legal rule
from the Supreme Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s case.
Id. at 407-08, 413. When the Court makes the “unreasonable application” inquiry it “should ask whether the
state court’s application of clearly established federal

51a
law was objectively unreasonable.” Id. at 409. Thus,
the State court’s application of clearly established federal law must be more than simply erroneous or incorrect, it must be objectively unreasonable. Id. at 409-11;
Macias v. Makowski, 291 F.3d 447, 451 (6th Cir. 2002).
B. Ground One
Petitioner challenges the Kentucky Supreme
Court’s holding that the trial court did not abuse its
discretion when it refused to sever the two murder
charges. In the interest of developing a convenient
record for review, the undersigned will begin by quoting the portion of the Kentucky Supreme Court’s opinion dealing with this claim.
Throughout these proceedings, Appellant has
argued a particular manner in which he was
prejudiced by joinder of the charges; namely,
that his right to testify in his own defense was
compromised. While Appellant wished to testify in support of his claim of justification for
Stevie Collins’s murder, he wanted to invoke
his privilege not to testify in Christa Wilson’s
murder. This issue has not been much addressed in our cases. The federal courts, however, under their similar rules of joinder and
severance, have noted that, while courts zealously guard a defendant’s Fifth Amendment
right not to testify at all, “the case law is less
protective of a defendant’s right to testify selectively.” United States v. Fenton, 367 F.3d
14, 22 (1st Cir. 2004). A defendant who argues
for severance on the basis of selective testimony “must make a ‘persuasive and detailed
showing regarding the testimony he would give
on the one count he wishes severed and the

52a
reason he cannot testify on the other counts.”‘
United States v. McCarther, 596 F.3d 438, 443
(8th Cir. 2010) (quoting United States v.
Possick, 849 F.2d 332, 338 (8th Cir. 1988)). The
United States Circuit Court for the Sixth Circuit has held that severance is not required unless the defendant “‘makes a convincing showing that he has both important testimony to
give concerning one count and a strong need to
refrain from testifying on the other.”‘ United
States v. Bowker, 372 F.3d 365, 385 (6th Cir.
2004), vacated on other grounds, 543 U.S. 1182,
125 S.Ct. 1420, 161 L.Ed.2d 181 (2005) (quoting
United States v. Martin, 18 F.3d 1515, 1518-19
(10th Cir. 1994)). Otherwise, “severance would
be available to a defendant virtually on demand.” Fenton, 367 F.3d at 23.
This Court reached a similar conclusion in Owens v. Commonwealth, 572 S.W.2d 415,416 (Ky.
1977):
[Defendant] argues that he was confounded in his defense for the reason
he wished to testify as to one charge,
but not the others. … This argument
in the absence of other compelling factors ordinarily is not sufficient to warrant a severance. Otherwise, it would
have the effect of nullifying the provisions of RCr 9 .12, consolidation of offenses for trial.
Here, Appellant has not made a persuasive and
detailed showing of “compelling factors” that
would justify his selective testimony. He has
not shown that his testimony regarding Stevie

53a
Collins’s murder was vital, as he was able to assert his justification defense through other
witnesses who testified to the victim’s alleged
involvement in the murder of Appellant’s uncle.
And he has made no showing of a strong need
to refrain from testifying with respect to Christa’s murder. See, e.g., Bowker, supra, and
McCarther, supra. The trial court did not
abuse its discretion, therefore, by denying Appellant’s severance motion on the ground of selective testimony.
Nor was severance required on the ground that
the two murders were not sufficiently related.
A primary test for determining whether undue
prejudice will result from a joinder of offenses
is whether evidence necessary to prove one offense would be admissible in a trial of the other
offense. Roark v. Commonwealth, supra. As
noted, a trial court’s decision to join offenses
related in this way will not be disturbed absent
an abuse of discretion. Debruler v. Commonwealth, supra; Roark, supra. We agree with
the Commonwealth that there was no abuse of
discretion here, because the two murders were
based on “transactions connected together.”
RCr 6.18.1 Clearly, evidence of Stevie Collins’s
murder would have been admissible in a separate trial of Christa Wilson’s murder, since the
alleged motive for the second murder was Appellant’s desire to cover up the first murder by
eliminating one who had witnessed it. KRE
404(b) (evidence of other bad acts is admissible
to prove motive.); Tucker v. Commonwealth,
916 S.W.2d 181 (Ky. 1996) (evidence that defendant had shot a witness of a prior crime was

54a
admissible to show that charged shooting was
similarly motivated.). Similarly, evidence of
Christa’s murder would have been admissible
in a separate trial of Stevie Collins’s murder,
since evidence that one has attempted to cover
up a crime is circumstantial proof of one’s consciousness of guilt regarding that crime. KRE
404(b) (evidence of other bad acts is admissible
to prove intent.); Major v. Commonwealth, 177
S.W.3d 700 (Ky. 2005) (evidence that defendant
beat a potential witness was admissible as
proof of consciousness of guilt.); Foley v. Commonwealth, 942 S.W.2d 876, 887 (Ky. 1996)
(“Any attempt to suppress a witness’ testimony … is evidence tending to show [a consciousness of] guilt.”). The trial court did not abuse
its discretion, therefore, by deeming the two
murders sufficiently related to be tried together.
Collins, 2010 WL 2471839 at *3-4.
The issue now is whether this holding represents
an objectively unreasonable application of clearly established federal law. Answering this question requires the undersigned to identify the relevant standard and assess the extent (or not) to which the Kentucky Supreme Court’s holding comports with that
standard.
Petitioner’s claim has two potential constitutional
implications. The first is the possibility that failure to
sever the charges deprived Petitioner of his right to
testify or remain silent on his own behalf. See United
States v. Bowker, 372 F.3d 265, 383-84 (6th Cir. 2004).
The second is the possibility that joinder of the two
charges created prejudice so substantial as to deny Pe-

55a
titioner a fair trial under the Fifth Amendment. See
United States v. Lane, 474 U.S. 438, 449 (1986). The
undersigned will address each issue in turn.
As for a defendant’s need to testify selectively, the
Kentucky Supreme Court identified the proper standard on Collins’ direct appeal. Defendants are entitled
to severance of charges where they can convincingly
demonstrate they have both important testimony to off
er on one count and a strong need to refrain from testifying on the other count. Collins, 2010 WL 2471839 at
*3 (citing Bowker, 372 F.3d at 385. Nor was the court’s
application objectively unreasonable. Even in his present motion, Petitioner has failed to offer evidence of
critical testimony that he was unable to present with
respect to his justification defense in the Stevie Collins
murder. Petitioner does not refute the Kentucky Supreme Court’s finding that other witnesses testified as
to the defense theory that Petitioner’s actions may
have been justified because Stevie Collins may have
murdered Petitioner’s developmentally disabled uncle
some years before. The undersigned therefore concludes that, while Petitioner has satisfactorily demonstrated his need to stay silent with respect to the
Christa Wilson murder, he has failed to demonstrate a
strong need to testify on his own behalf with respect to
the Collins murder. Therefore, the Kentucky Supreme
Court’s analysis was not an unreasonable application of
clearly established federal law, and it is recommended
that this portion of Ground One be denied.
The undersigned will next address prejudice. The
U.S. Supreme Court has held that misjoinder of offenses can cause prejudice amounting to a violation of a defendant’s right to a fair trial under the Fifth Amendment. Lane, 474 U.S. at 449. But the Court also recognized that joinder of offenses serves to “‘conserve state

56a
funds, diminish inconvenience to witnesses and public
authorities, and avoid delays in bringing those accused
of crime to trial.”‘ Id. (quoting Bruton v. United States,
391 U.S. 123, 134 (1968). The Court concluded that improper joinder should be subject to a harmless error
analysis, and an error in joinder only affects a defendant’s substantive rights requiring reversal where misjoinder resulted in a “substantial and injurious effect or
influence in determining the jury’s verdict.” Id. (internal quotations and citations omitted).
Returning to the Kentucky Supreme Court’s analysis of prejudice against Petitioner, the undersigned
notes that the court did not cite to Lane in its opinion,
but failure to cite specific Supreme Court precedent
does not itself render an opinion contrary to or an unreasonable application of clearly established federal
law. Early v. Packer, 537 U.S. 3, 8 (2002). A decision
may well comport with clearly established law while
demonstrating no awareness of the relevant federal
standard, so long as neither the state court’s reasoning
nor its result contradicts federal law. Id. Therefore,
this Court must compare the Kentucky Supreme
Court’s reasoning to the standard from Lane, articulated above.
The Kentucky Supreme Court acknowledged the
potential for undue prejudice where it wrote “[a] primary test for determining whether undue prejudice
will result from a joinder of offenses is whether evidence necessary to prove one offense would be admissible in a trial of the other offense.” Collins, 2010 WL
2471839, at *4. This statement is in keeping with the
majority’s rationale in Lane. There, the Court found
the misjoinder of offenses to be harmless error, and one
justification was that evidence from the first offense
would likely be admissible in the second trial “to show

57a
[the defendant’s] intent under Federal Rule of Evidence 404(b).” Lane, 474 U.S. at 450. Thus, the Kentucky Supreme Court operated under the proper
standard.2
The majority’s application of the standard, however, raises serious constitutional questions. As previously mentioned, this opinion split the court four-three,
and the joinder issue is the dissent’s sole focus. Writing
for the dissent, Justice Venters notes that he is convinced that enough circumstantial evidence exists for a
jury to find that Collins killed Christa Wilson. Collins,
2010 WL 2471839 at *8 (Venters, J., dissenting). However, the dissent further points out that the majority
opinion concludes that the two crimes bear an evidentiary connection, but in so doing, the majority elides a
crucial fact—the only support for this conclusion is the
prosecution’s subjective theory. Id. “The Commonwealth’s theory is a mere possible explanation with no
evidentiary link that connects together the two murders. The murder of a young woman at the hands of
her boyfriend is, unfortunately, an all too common occurrence and the proof that Appellant did it is hardly
dependant [sic] upon the motivation theorized by the
Commonwealth.” Id. The dissent concludes that the
logical extension of such reasoning would result in the
propriety of joinder hinging solely on whatever theory
the prosecution might cobble together before trial to
connect multiple offenses, and in this instance, Collins
was deprived a fair trial as a result. Id. at *8-9.
The dissent’s argument is well-taken, and a review
of the record reveals how illusory the evidence was that
2

Indeed, even the three dissenting justices acknowledged
that the majority opinion had correctly presented the relevant
standard. Collins, at *8.

58a
the trial court relied on and the Kentucky Supreme
Court upheld in denying Petitioner’s motion to sever.
In its brief to the Kentucky Supreme Court, the Commonwealth described the severance hearing as follows:
The Commonwealth filed a motion to consolidate these two indictments on January 19,
2006, stating that the offenses in both indictments were the same in character and based
upon the same acts, constituting a common
scheme or plan. The Commonwealth also stated that they believed that Christa Gail Wilson
had been murdered because she was a witness
to the murder of Steve Collins, and that her
murder had been committed in an attempt to
cover up Steve Collins’ murder. The trial court
ordered these two indictments to be consolidated for trial on February 28, 2006, stating
that it believed that the offenses in both indictments “could have been joined in a single
indictment” and that the charges involved in
Christa Gail Wilson’s murder were directly related to Steve Collins’ murder.
(DN 26-4 at PageID # 307)
Something obvious is missing from the Commonwealth’s statement. Proof. If the Commonwealth had
supported its theory with testimony and proven it to
any extent, then denial of the motion to sever would
have been academic. What is more disturbing, the
Commonwealth never sought to prove these allegations
at trial, despite the fact that the only evidence linking
Petitioner to the death of Christa Wilson was the paint
scraping found on a rock near the victim’s body that
closely matched the paint from Petitioner’s car and circumstantial evidence involving Petitioner’s father

59a
threatening witnesses of the Stevie Collins murder.
Why, then, would the prosecution choose not to bolster
its case against Petitioner in the second murder with
evidence that Petitioner had threatened Christa Wilson
and demanded her silence? What could explain the decision not to connect the two murders, allegedly part of
a common scheme, after telling the judge before trial
that Petitioner murdered Christa Wilson to silence her?
The explanation for the omission may range from unintentional neglect to something more sinister, but the
result is the same: a baseless joinder of charges that
may have deprived Petitioner of a fair trial.
However, this Court is not reviewing the trial
court for the correctness of its decision, but is instead
concerned only with whether the failure to sever
amounted to an unreasonable application of clearly established federal law. “In order to prevail on a motion
for severance, a defendant must show compelling, specific, and actual prejudice from a court’s refusal to
grant the motion to sever.” United States v. Saadey,
393 F.3d 669, 678 (6th Cir. 2005). Here, as in Saadey,
Petitioner has suggested that the cumulative effect of
multiple charges may have led the jury to find him
guilty of the second crime because multiple charges
suggest a criminal disposition. Id. at 678-79. The Sixth
Circuit rejected this reasoning, and the undersigned is
bound by that holding. Granted, the evidence against
Petitioner in the Christa Wilson murder was circumstantial, but as previously mentioned, even the dissenting justices in Petitioner’s appeal believed the evidence
was sufficient to support a conviction. Collins, at *8.
Petitioner has failed to make the particularized showing of prejudice required to succeed on this claim. It is
therefore recommended that this claim be denied.

60a
When the Court rejects a claim on the merits, a Petitioner must demonstrate that reasonable jurists
would find the Court’s assessment of the constitutional
claim debatable or wrong. Slack v. McDaniel, 529 U.S.
473, 484 (2000). Here, while the undersigned is confident that Petitioner has failed to demonstrate the specific and particularized prejudice required under federal law, there is certainly room for disagreement. The
fact that this case narrowly split the Kentucky Supreme Court provides further evidence that reasonable
jurists can (and did) disagree on this issue. Therefore,
it is recommended that a limited Certificate of Appealability issue as to Ground One. Specifically, Petitioner
should be allowed to appeal on the issue of whether the
trial court’s refusal to sever the two charged offenses
had a “substantial and injurious effect or influence in
determining the jury’s verdict.” See Lane, 474 U.S. at
449.
C. Ground Two
As previously mentioned, Collins argues in Ground
Two that he was denied due process when the trial
judge refused to order a mistrial after witness Natasha
Saylor testified that someone slit her throat (DN 1 at
PageID # 6). Collins did not commit the assault, but he
alleges that the trial judge had previously ruled that
such evidence would be inadmissible, and Saylor’s unsolicited testimony about the incident allowed the prosecution to support its theory that Collins had killed
Christa Wilson to silence her. The Kentucky Supreme
Court addressed the issue as follows:
Prior to trial, Appellant filed a motion to exclude evidence of Natasha Saylor’s assault.
Four male relatives of Appellant had attacked
Ms. Saylor and slashed her throat. Three of

61a
her attackers were convicted and the fourth
negotiated a plea. Although Appellant and his
father were referenced throughout the assault
trial, neither was charged for the offense. Accordingly, Appellant’s motion sought to “exclude any mention of or evidence associated
with the Natasha Saylor assault trial, as well as
the mention of [the four individuals charged
with the assault] and their respective convictions.”
At a hearing on the motion, the prosecutor
stated that he did not have a problem with the
request “unless they [defense counsel] were to
open a door through their cross-examination …
we’ll stay away from that, we don’t have any
problem with it.” Defense counsel responded
that she intended to probe Saylor’s mental and
physical state and that what she was asking the
court to preclude was “her explaining how she
got that way ... I mean I don’t know that I can
keep her from expressing her opinion as to why
she thinks that happened.” The Commonwealth responded that if defense counsel’s
questions resulted in mention of the assault and
resulting injuries, he should be able to follow
up by asking Saylor how she sustained those injuries. Recognizing that the primary concern
was that defense counsel’s question would open
the door to the testimony and that the Commonwealth otherwise agreed to the exclusion of
the evidence, the trial court denied the motion
and cautioned defense counsel not to open the
door to the very evidence she wished to exclude.

62a
As anticipated, Saylor referenced the assault at
trial in response to one of defense counsel’s
questions. Specifically, defense counsel asked
Saylor, “You indicated that you were scared for
your life. Who were you afraid of?” Saylor responded, “To be honest, I was afraid of the
whole family. That’s why I never told anyone
until my throat got cut.” Defense counsel immediately moved for a mistrial. The Commonwealth responded that defense counsel’s question opened the door, while defense counsel
contended that Saylor’s answer was not responsive to her question. The trial court denied the request for a mistrial and defense
counsel declined an admonition, opining that it
would just draw more attention to the testimony. The trial court did rule, however, that Saylor’s brief reference to the assault did not open
the door for the Commonwealth to pursue the
matter. The matter was not mentioned again
and it was never revealed that the assault had
been committed by relatives of Appellant.
Under these circumstances, we cannot agree
with Appellant’s contention that Saylor’s comment was grounds for a mistrial. “A mistrial is
an extreme remedy and should be resorted to
only when there appears in the record a manifest necessity for such an action or an urgent or
real necessity.” Graves, 285 S.W.3d 734, 737
(Ky. 2009) (quoting Bray v. Commonwealth,
177 S.W.3d 741, 752 (Ky. 2005)). The trial court
did not abuse its discretion in refusing to declare a mistrial.
Collins, at *5.

63a
The issue is whether this represents an objectively
unreasonable application of clearly established federal
law. When a petitioner asserts a general challenge to
due process that does not involve a specifically defined
right, this Court is only concerned with whether the
challenged action was so prejudicial as to deprive the
petitioner of a fair trial. Donnelly v. DeChristoforo, 416
U.S. 637, 642-43 (1974). In the 2254 context, the Sixth
Circuit has applied its own standard to decisions not to
declare a mistrial after such comments. See Zuern v.
Tate, 336,478,475 (6th Cir. 2005). When determining
whether a particular witness’s comment was prejudicial, courts should consider whether the comment “was
unsolicited; the government’s line of questioning reasonable; the limiting instruction immediate, clear, and
forceful; no bad faith evidenced by the government; and
the reference itself only a small part of the evidence
against defendant.” United States v. Forest, 17 F.3d
916, 921 (6th Cir. 1994) (citing United States v. Hernandez, 873 F.2d 925, 928 (6th Cir. 1989)).
Here, Saylor made the statement while being
cross-examined by defense counsel. Thus, the prosecution did not solicit the statement. Again, because the
statement came out on cross-examination, there is no
need to inquire into the government’s line of questioning. Next, defense counsel declined a limiting instruction. And, finally, Petitioner has made an assertion but
provided no evidence that the prosecution used the fact
that someone else slashed Saylor’s throat to convince
the jury that Petitioner killed Christa Wilson. Rather,
the lion’s share of the evidence leading to Petitioner’s
conviction for the murder of Christa Wilson rested on
the circumstantial forensic evidence discussed above.
Therefore, while the Kentucky Supreme Court did not,
for obvious reasons, identify and apply the Sixth Cir-

64a
cuit’s standard in reviewing this issue, an application of
the relevant federal law reveals that its holding is in no
way an unreasonable application of clearly established
federal law, and it is recommended this claim be denied.
D. Ground Three
As previously mentioned, Petitioner argues another Fourteenth Amendment violation in Ground Three
where the trial court allowed the introduction of the
hearsay statements of Harold Collins, through April
Collins, that Harold and Petitioner were working in
concert to ensure the silence of the witnesses of Stevie
Collins’ murder (DN 1 at PageID # 6). On review, the
Kentucky Supreme Court examined the record and
noted some critical differences in Petitioner’s account.
During direct examination, April Sizemore Collins referenced a message that Appellant’s father, Harold Wayne Collins, had left on her cell
phone voicemail. When she began to repeat the
message, “They’ve already found one body,”
defense counsel objected on hearsay grounds.
Although the trial court overruled the objection, the Commonwealth instructed April to refrain from repeating the contents of any
threats and to merely answer whether she had
been threatened. On cross-examination, however, defense counsel elicited the content of the
voicemail. Specifically, defense counsel asked
April, “Harold Wayne told you that they’d already found one body up on Hector, and asked
you if you wanted to be next, didn’t he?” April
responded affirmatively and defense counsel
continued, “And that’s where Christa Gail Wilson’s body was found wasn’t it?” Again, April
answered affirmatively.

65a
Under these circumstances, we must agree
with the Commonwealth that defense counsel
on cross-examination opened a door that had
been willingly closed by the Commonwealth.
Appellant may not argue error in admission of
testimony that he intentionally elicited.
Collins, at *6.
The Confrontation Clause precludes the introduction of statements from unavailable declarants when
those statements are offered to prove the truth of the
matter asserted. Crawford v. Washington, 541 U.S. 36,
53 (2004); Berry v. Capello, 576 F. App’x 579, 585 (6th
Cir. 2014) (unpublished). “It is the testimonial character of the statement that separates it from other hearsay that, while subject to traditional limitations upon
hearsay evidence, is not subject to the Confrontation
Clause.” Davis v. Washington, 547 U.S. 813, 821 (2006).
Testimonial evidence is evidence given in support of
facts at issue with the purpose of convicting the accused. Id. at 826. Evidence not offered for the truth of
the matter asserted is not hearsay. Anthony v. Dewitt,
295 F.3d 554, 563 (6th Cir. 2002).
Anthony concerned a 2254 petitioner who had been
convicted of aggravated murder. Id. at 557. Several
months before the murder, the victim, Patricia Smith,
had filed felony theft charges against Anthony’s friend,
Rommell Knox, after he stole a ring from her apartment when performing a routine pest extermination.
Id. Knox, fearful of going to prison, drove to Smith’s
apartment with Knox’s brother, John Knox, and Rommell’s girlfriend, Mary Payne. Id. Rommell asked
Payne to knock on Smith’s door because he believed
Smith would open the door for Payne, a white woman,
but not for him, a black man. Id. at 558-59. Payne

66a
agreed. Smith indeed opened the door, and Anthony
shot and killed her. Id. at 559. Anthony grabbed Payne
and said “Move, bitch.” Id. Payne and Anthony returned to the car and fled the scene. Id. As the car
drove off, Payne opened her door and vomited. Id.
When Rommell saw Payne’s reaction, he twisted
Payne’s arm and threatened to kill her if she told anyone what she’d seen that evening. Id.
At issue before the Sixth Circuit were two out of
court statements: Rommell’s alleged request that
Payne knock on Smith’s door, and Rommell’s threat to
kill Payne if she told anyone what she had witnessed.
Id. It is the Court’s treatment of the latter statement
that settles Petitioner’s claim. The Sixth Circuit held
that Payne’s testimony about Rommell’s threat was not
offered for the truth of the matter asserted, but rather
as an explanation for Payne’s failure to contact authorities following the murder. Id. at 563.
The same can be said in Petitioner’s case. As the
Kentucky Supreme Court noted, April Sizemore Collins, and other witnesses, initially denied having any
knowledge of the events leading to Petitioner’s conviction. Collins, at *1. Thus, April Sizemore Collins’ testimony may have been admitted to explain her initial
denials that she had witnessed the murder. Therefore,
the admission of this testimony was not an unreasonable application of clearly established federal law, and it
is recommended that this claim be denied.3

3

The undersigned also notes that, while not a constitutional
issue, the Kentucky Supreme Court's refusal to allow Petitioner to
challenge hearsay elicited by his own counsel is also in keeping
with Sixth Circuit interpretation. United States v. Goins, 186 F.
App'x 586, 589 (6th Cir. 2006) (unpublished) ("We will not allow

67a
E. Ground Four
As previously mentioned, Petitioner argues in
Ground Four that his Fourteenth Amendment rights
were violated where the trial court did not sequester
the victim’s wife, Donna Collins, before she testified,
which Petitioner asserts allowed her to shape her testimony in a manner that damaged Petitioner’s justification defense (DN 1 at PageID # 7.
Again, the Kentucky Supreme Court addressed
this issue on Petitioner’s direct appeal and wrote as follows:
Upon the request of a party, KRE 615 mandates that the trial court exclude witnesses
from the courtroom except when they are testifying. However, the Rule does not authorize
the exclusion of 1) a party; 2) “[a]n officer or
employee of a party which is not a natural person designated as its representative by its attorney;” or 3) “[a] person whose presence is
shown by a party to be essential to the presentation of the party’s cause.” KRE 615. Commonly, a lead detective or investigator is allowed to remain in the courtroomunder the
second exception. Justice v. Commonwealth,
987 S.W.2d 306 (Ky. 1998); Dillingham v.
Commonwealth, 995 S.W.2d 377 (Ky. 1999). In
this case, two primary detectives remained in
the courtroom without objection. The Commonwealth also requested that Stevie Collins’s
widow, Donna Collins, be allowed to remain in
the courtroom as a “victim’s representative.”
appellant to now criticize the district court for hearsay generated
by his own counsel.").

68a
Although Appellant initially objected, both
parties expressed satisfaction when the trial
court ruled that Donna Collins could remain in
the courtroom only on the condition that the
Commonwealth minimize her exposure to other
witnesses’ testimony by calling her promptly.
Although the Commonwealth did not want to
call the victim’s widow as his first witness, he
did agree that she would be his second or third
witness. At this point, the record reveals that
Appellant waived any objection to Donna Collins remaining in the courtroom.
Subsequently, however, the Commonwealth informed the court that because it did not want
to subject Donna Collins to the stress of testifying, it had decided not to call her at all, but offered for the defense to go ahead and do so, in
keeping with the previous agreement and ruling that she could remain in the courtroom so
long as she testified promptly. Appellant declined to call her “outof-order,” and instead renewed his objection to Donna Collins’s remaining in the courtroom, reiterating that KRE 615
provided no exemption for a “victim’s representative.”
While Appellant’s counsel expressed a personal understanding of Donna
Collins’s desire to remain in the courtroom, she
unequivocally objected on the record. Thus,
the Commonwealth’s contention that Appellant
waived any objection is unsupported by the
record.
This Court addressed a similar factual scenario
in Hatfield v. Commonwealth, supra, wherein
the victim’s grandfather was permitted to remain in the courtroom even though he was a

69a
witness for the Commonwealth and did not testify until the end of the Commonwealth’s casein-chief. The Court held that a “victim’s representative” may fall within the third exception
to KRE 615 in certain circumstances, but there
must be a showing that the witness is “essential to the presentation of the party’s cause.”
KRE 615(3). The Hatfield Court reasoned that
failure to exclude the victim’s grandfather from
the courtroom was error because the required
showing had not been made. Likewise, no such
showing was made to justify Donna Collins’s
presence in the court. However, the Hatfield
Court proceeded to deem the error harmless.
In so doing, the Court distinguished Mills v.
Commonwealth, 95 S.W.3d 838 (Ky. 2003), the
case upon which Appellant relies. Mills held
that permitting a robbery witness to remain in
the courtroom constituted reversible error.
However, the witness in Mills was the sole witness to the robbery, rendering his credibility of
critical importance. In contrast, the testimony
of the victim’s grandfather in Hatfield was
largely duplicative and was not “of an indispensable nature to the outcome of the trial.” Hatfield, 250 S.W.3d at 595. Because the circumstances here are more akin to those in Hatfield,
Appellant’s reliance on Mills is unpersuasive.
Donna Collins remained in the courtroom for
the entire proceeding and was called as Appellant’s first defense witness. She testified that
her deceased husband did not carry guns regularly, that she had never heard that Appellant’s
father blamed Stevie for Appellant’s uncle’s
murder, and that Stevie was right-handed.

70a
Before this Court, Appellant argues that allowing Donna Collins to remain in the courtroom
enabled her to conform or adjust her testimony
based on the testimony she had heard during
the Commonwealth’s case-in-chief. Most damning, he argues, was Donna Collins’s testimony
that Stevie was right-handed, given the prior
testimony that gunshot residue was detected
on Stevie’s left hand. Nevertheless, we are
persuaded that any error was harmless. Donna
Collins did not witness the murder and her testimony was merely to offer background information on the victim. As the Commonwealth
points out, it is highly unlikely that she would
have testified differently had she not heard the
other witnesses, particularly with regard to her
testimony that the victim was right-handed.
Collins, at *6-7.
While the Sixth Circuit has not addressed the issue
directly, there is a consensus among the district courts
of this circuit that a trial court possesses broad authority in decisions relating to the sequestration of witnesses, and the decision to allow a witness in the courtroom
does not implicate clearly established federal law and
cannot form the basis of a claim for habeas relief. See,
e.g. Lemaster v. Ohio, 119 F.Supp.2d 754, 776 (S.D. Ohio
2000); Lester v. Phillips, No. 08-13053, 2010 WL
2613082 (E.D. Mich. Jun. 28, 2010) (collecting cases).
The undersigned agrees with this assessment and further notes that, to the extent the trial court should
have excluded Donna Collins pursuant to KRE 615, the
Kentucky Supreme Court correctly concluded that any
error resulting from the decision to allow her in the
courtroom was harmless. She was not a witness to the
murder, and the information she provided was more

71a
akin to general background than anything vital to conviction. It is therefore recommended that this claim be
denied.
F. Grounds Five and Six
As previously mentioned, in Ground Five, Petitioner argues ineffective assistance of counsel violated his
Sixth and Fourteenth Amendment rights where trial
counsel failed to object during the prosecution’s opening statement when the Commonwealth mentioned that
Harold Collins had invoked his right to remain silent
and requested an attorney (DN 1 at PageID # 7). Related, in Ground Six, Petitioner argues ineffective assistance of counsel where counsel failed to object to the
prosecution’s question posed to witness Detective
Yates about the same incident, Harold Collins’ decision
to remain silent and request counsel.
Collins presented these arguments to the Kentucky
Court of Appeals in his RCr 11.42 motion for collateral
relief. The Court of Appeals discussed the testimony at
issue as follows:
At the beginning of trial, the Commonwealth
made a twenty-minute opening statement in
which it recounted for the jury the following:
[During their initial investigation,] police officers did not arrest Harold Collins or John Wayne Collins at that time
for this murder. However, they began
to ask questions and they immediately
knew, because the detective had had
the conversation with Harold Collins
there and Harold Collins immediately
asked for his lawyer ... and we immediately had reason to know these were

72a
the ones involved but no arrests were
made ....
Later, during Detective Yates’s testimony, the
Commonwealth asked him what events occurred during his initial investigation of the
murder. Detective Yates recalled, among other
events, that he encountered Harold Collins at
his home and briefly spoke to him. The following testimony ensued:
Det. Yates: [Harold Collins] advised
me that he had been out visiting and
had returned to his residence and had
seen the police and the ambulance and
not knowing what was going on had
pulled into his son’s residence. … Later in the evening, Harold Collins came
to his own residence ....
Commonwealth: And in fact you-did he
tell you that if you wanted to talk to
him or his son any more you would
have to talk to his lawyer first?
Det. Yates: Yes, sir, that’s what he advised me.
Collins v. Commonwealth, No. 2011-CA-002105-MR,
2013 WL 2257673, at *2 (Ky. Ct. App. May 24, 2013)
Next, in ruling that defense counsel’s failure to object did not represent ineffective assistance of counsel,
the Court of Appeals wrote:
Appellant correctly states that trial courts may
not permit punishment for the exercise of a
constitutional right such as the exercise of the
rights to silence and to an attorney. See Griffin

73a
v. California, 380 U.S. 609, 613-14, 85 S.Ct.
1229, 14 L.Ed.2d 106 (1965). Mention of a defendant’s invocation of these rights is forbidden, Williams v. Commonwealth, 287 Ky. 596,
154 S.W.2d 724 (1941), and violates a defendant’s rights when it was “manifestly intended
to be, or was of such character that the jury
would necessarily take it to be, a comment upon the defendant’s failure to [speak], or invited
the jury to draw an adverse inference of guilt
from that failure.” Ragland v. Commonwealth,
191 S.W.3d 569, 589-90 (Ky. 2006) (citing to
Byrd v. Commonwealth, 825 S.W.2d 272, 275
(Ky. 1992) (overruled on other grounds)). In
looking first to the Commonwealth’s mention of
Harold Collins in its opening statement, we are
required to view the statement in context, and
“if there is another, equally plausible explanation for a statement, malice will not be presumed and the statement will not be construed
as comment on the defendant’s [invocation of
his rights].” Ragland, 191 S.W.3d at 589-90.
Appellant cites to the [Kentucky] Supreme
Court’s very recent decision in Ordway v.
Commonwealth, 391 S.W.3d 762 (Ky. 2013), to
support his argument that “silence cannot be
used to show that a defendant did not act in
self-defense.” While Ordway indeed stands for
this proposition, Ordway is factually and legally
distinguishable, and therefore inapplicable, to
the present case. In Ordway, the Supreme
Court reversed the defendant’s conviction after
a police detective was permitted to testify regarding the defendant’s post-arrest, preMiranda invocation of silence and that it indi-

74a
cated a motive other than self-defense. The
Court found this testimony “highly prejudicial,”
not on grounds related to constitutionality, as
Appellant seems to imply, but because the testimony was irrelevant. In fact, the Court ruled
that because the defendant made his statement
before he had been told of his right to silence, it
was otherwise constitutionally admissible.
Harold Collins was not in custody when he
made his statement and his statement has not
been challenged for its relevancy. Therefore,
we derive little assistance from Ordway and
elect as our guide the above-cited rule found in
Ragland.
Taken in the context of the surrounding statements and the Commonwealth’s opening
statement as a whole, another “equally plausible explanation for the statement” emerges.
The Commonwealth was describing to the jury
the chronology of events surrounding Stevie
Collins’s death and the investigation that followed. The Commonwealth’s mention of Harold Collins’s brief encounter with Detective
Yates was accurate and was not repeatedly or
emphatically stated to the jury. Nothing in this
brief and benign statement showed malice on
the part of the Commonwealth and nothing in
the statement invited the jury to infer Appellant’s guilt from that statement. The Commonwealth was simply introducing the facts of
the case to the jury and nothing more. For
these reasons, the Commonwealth’s mention of
Harold Collins’s statement during its opening
statement was not malicious and was therefore
not constitutionally forbidden.

75a
For this reason, it cannot be said that trial
counsel’s failure to object to use of Harold Collins’s statement or her failure to seek exclusion
of the statement through motions in limine was
deficient. Furthermore, even if counsel’s performance was somehow deficient, given the
wealth of evidence provided at trial from other
sources and not subject to such objections, such
deficiency did not change the outcome of Appellant’s trial. Appellant’s claim for ineffective
assistance of counsel based on the Commonwealth’s mention of his father’s statement to
Detective Yates fails at least one crucial factor
of the Strickland analysis, if not both. Therefore, we agree with the trial court that, not only is there an insufficient legal basis for Appellant’s RCr 11.42 claims, but also that those
claims are adequately refuted by the video record which demonstrates the Commonwealth’s
benign use of Harold Collins’s statement.
Id. at *4-5.
The issue is whether this holding represents an unreasonable application of clearly established federal
law. Again, the first step is ensuring that the Kentucky
Court of Appeals identified the proper standard. The
portion of the opinion quoted above references Strickland. Earlier in the opinion, the Court of Appeals set
forth the standard by quoting directly from Strickland.
A convicted defendant’s claim that counsel’s
assistance was so defective as to require reversal of a conviction … has two components.
First, the defendant must show that counsel’s
performance was deficient.
This requires
showing that counsel made errors so serious

76a
that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show
that the deficient performance prejudiced the
defense.
Id. at *3 (quoting Strickland v. Washington, 466 U.S.
668,687 (1984).
This is the precise standard, as set forth by the Supreme Court of the United States. Now the issue becomes whether the Court of Appeals unreasonably applied the standard. First, the Court of Appeals recognized that the prosecution may not use a criminal defendant’s invocation of his right to remain silent as evidence of the defendant’s guilt, but where the invocation
of a right is mentioned in the presence of the jury, malice is not presumed where there is an equally plausible
explanation. In doing so, the court recognized both the
federal constitutional issue as well as the relevant state
law. The Court of Appeals concluded that alternate
explanations existed for the prosecution’s comment,
and the analysis suggests that counsel’s decision not to
object during the opening statement was tactical rather
than deficient performance. The undersigned agrees.
Moreover, the undersigned notes that it was not even
Petitioner’s invocation of the right to remain silent that
the prosecution mentioned, but that of Harold Collins.
Finally, the Court of Appeals reasonably concluded
that Petitioner had not demonstrated that the comment
prejudiced him. To show prejudice, “[t]he defendant
must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.” Strickland, 466 U.S. at 694.
Here, there was circumstantial evidence that provided

77a
a sufficient basis for a jury to conclude beyond a reasonable doubt that Petitioner killed Christa Wilson.
Therefore, Collins cannot demonstrate prejudice.
The Court of Appeals did not specifically reference
the examination of Detective Yates beyond acknowledging Petitioner’s ineffective assistance of counsel
claim relating to counsel’s failure to object to Yates’
testimony. However, the undersigned concludes it is
implicit in the court’s analysis that the same standard
and same conclusion apply. Moreover, the undersigned
notes that, having concluded that there was no prejudice in the first instance, there could be no prejudice in
the second instance because the jury had already
learned the information from the prosecution’s opening
argument. Therefore, the undersigned recommends
that Grounds Five and Six be denied.
G. Certificates of Appealability for Grounds
Two Through Six
When the Court rejects a claim on the merits, a Petitioner must demonstrate that reasonable jurists
would find the Court’s assessment of the constitutional
claim debatable or wrong. Slack v. McDaniel, 529 U.S.
473, 484 (2000). As explained above, none of Petitioner
grounds for relief, save Ground One, would cause disagreement among reasonable jurists. Therefore, it is
recommended that Certificates of Appealability be denied as to Ground Two, Three, Four, Five, and Six.
RECOMMENDATION
Therefore, it is recommended that all of Petitioners
claims be denied, that a Certificate of Appealability issue as to Ground One, and that no Certificate of Appealability issue as to the other claims.

78a
[Seal/electronic signature]
H. Brent Brennenstuhl
United States Magistrate Judge
June 8, 2017
NOTICE
Therefore, under the provisions of 28 U.S.C.
§§ 636(b)(l)(B) and (C) and Fed.R.Civ.P. 72(b), the Magistrate Judge files these findings and recommendations
with the Court and a copy shall forthwith be electronically transmitted or mailed to all parties. Within fourteen (14) days after being served with a copy, any party
may serve and file written objections to such findings
and recommendations as provided by the Court. If a
party has objections, such objections must be timely
filed or further appeal is waived. Thomas v. Am, 728
F.2d 813 (6th Cir.), aff’d, 474 U.S. 140 (1984).
[Seal/electronic signature]
H. Brent Brennenstuhl
United States Magistrate Judge
June 8, 2017
Copies: John Wayne Collins, pro se
Counsel of Record

79a
APPENDIX D
RENDERED: JUNE 17, 2010
NO TO BE PUBLISHED

SUPREME COURT OF KENTUCKY
2008-SC-000107-MR
JOHN WAYNE COLLINS,
Appellant,
v.
COMMONWEALTH OF KENTUCKY,
Appellee.
[Filed July 10, 2017]
No. 1:15-cv-00026-GNS-HBB
ON APPEAL FROM WARREN CIRCUIT COURT
HONORABLE THOMAS R. LEWIS, SPECIAL JUDGE
NO. 2007-CR-00804

MEMORANDUM OPINION OF THE COURT
AFFIRMING
John Wayne Collins appeals as a matter of right
from a judgment of the Warren Circuit Court convicting him of two counts of murder and imposing a sentence of life without the possibility of parole for a minimum of twenty-five years for each count. A kidnapping charge was dismissed by the trial court on Appellant’s motion for directed verdict. The charges against
Appellant alleged that he shot and killed Stevie Collins

80a
and that, several days later, Appellant shot and killed
Christa Wilson, who had been one of the witnesses to
the murder of Stevie Collins. Although the crimes occurred in Clay County, the inability to seat an impartial
jury there resulted in a transfer of the case to Warren
Circuit Court.
On appeal, Appellant asserts 1) that he was prejudiced by joinder of the two murder charges; 2) that he
should have been granted a mistrial after a witness improperly commented on a prior assault; 3) that the erroneous admission of hearsay statements attributed to
Appellant’s father constituted reversible error; and
4) that allowing the wife of one of the victims to remain
in the courtroom as a “victim’s representative” violated
Appellant’s due process rights. As Appellant’s assertions of error do not merit relief, we affirm the trial
court’s judgment.
RELEVANT FACTS
On October 10, 2004, Appellant and his girlfriend,
Christa Wilson, were visiting Appellant’s father, Harold Wayne Collins, and then-stepmother, April
Sizemore Collins. Another friend, Natasha Saylor, was
also present. Everyone was on the porch of the home,
visiting and drinking, when Stevie Collins pulled into
the driveway, exited his vehicle and approached the
porch. Stevie Collins extended an invitation for them
to accompany him to church, and Appellant’s father invited Stevie into the house. Appellant’s father then
shot Stevie in the face, whereupon Stevie fell to the
floor and began pleading for his life. Appellant told his
father that they could not let Stevie leave there. Appellant’s father agreed and instructed Appellant to finish the job. Appellant retrieved his own gun and shot
Stevie seven or eight times more, killing Stevie. A pos-

81a
sible explanation for Stevie Collins’s murder was revealed at trial when witnesses, including Appellant’s
uncle, Joe B. Collins, testified that his brother, Appellant’s developmentally disabled uncle, had been murdered and dismembered in 1997, and that it was believed that Stevie Collins was responsible for the uncle’s murder. After the shooting, the group left in three
different vehicles and met up again at a relative’s house
in Henry County, where they continued to drink and
sleep.
Meanwhile, police were dispatched to the murder
scene. Kentucky State Police Sergeant, John Yates,
one of the investigating officers, testified that one 9mm
round was discovered on the front porch and eight SKS
rounds were found in the yard on either side of the
porch. Later, when Appellant’s father was arrested, a
9mm handgun was retrieved from his vehicle. Ammunition fitting the description of the ammunition retrieved from Stevie Collins’s body was found in Appellant’s vehicle. However, lab results on the weapons
were inconclusive.
Although Appellant’s girlfriend, Christa Wilson,
Appellant’s stepmother, April Sizemore Collins, and
Natasha Saylor all repeatedly denied any knowledge of
Stevie Collins’s murder during the initial police investigation, both Natasha and April testified at trial to a
substantially similar version of events, consistent with
the factual summary set out hereinabove. Both also
testified that they initially lied to the police because
they had been threatened not to speak of Stevie Collins’s shooting. April had been threatened by her thenhusband, Appellant’s father, while Natasha had been
threatened by both Appellant and his father.

82a
Forty days after Stevie Collins was murdered, the
body of Christa Wilson was found face down in a creek.
She died from a gunshot wound to the head. Christa
had last been seen with Appellant. Paint that was discovered on a rock near Christa’s body appeared to have
been the result of a vehicle scraping the rock, and Appellant’s vehicle appeared to have been damaged in the
rear bumper area. A sample of the paint was compared
with a paint sample taken from Appellant’s vehicle, the
one he was driving when Christa was last seen with
him. At trial, a forensic science specialist for the Kentucky State Police (KSP) and a defense expert witness
testified concerning the results. The KSP specialist
testified that the paint layer from the rock sample was
identical to the paint layer from Appellant’s vehicle in
all areas, i.e., color, type, structure, texture, and elemental composition. The defense expert testified that
the substrata of the paint samples differed in thickness
and that the bottom layer did not match. For this reason, the defense expert disagreed that the paint samples were identical, but he did admit that the paint
samples were extremely similar. Further, the defense
expert explained that paint layer thickness varies
across each vehicle and, in fact, two samples taken from
Appellant’s vehicle varied in thickness. He also testified that the difference in substrates could be the result
of previous repairs made to the vehicle.
Ultimately, Appellant was tried and convicted for
both the murder of Stevie Collins and the murder of
Christa Wilson. Appellant had, initially, been indicted
for Stevie Collins’s murder. While Appellant was
awaiting trial on that charge, he was indicted for the
kidnapping and murder of Christa Wilson. As a jury
was being selected for the Stevie Collins’s murder, the
Commonwealth moved to consolidate the two cases.

83a
Over Appellant’s objection, the trial court granted consolidation, but gave Appellant a continuance. The
Commonwealth filed a notice of intent to seek the death
penalty based upon intentional killing and multiple
deaths. Subsequently, Appellant moved to sever the
offenses, arguing that his option to testify at trial was
compromised by joinder given his conflicting theories of
defense. The trial court denied the motion, concluding
that evidence in each case would presumably be admissible in the other. As stated above, when an impartial
jury could not be seated in Clay County, the case was
transferred to the Warren Circuit Court. Appellant
renewed his motion to sever after transfer, but the
Warren Circuit Court also concluded that joinder was
appropriate, and denied the motion to sever.
ANALYSIS
I.

The Trial Court Did Not Abuse Its Discretion By
Refusing to Sever the Two Murder Charges.

Appellant contends that the trial court committed
reversible error by refusing to sever the two murder
charges against him. This argument was properly preserved by Appellant’s timely objection to consolidation
of the charges and by his subsequent motions to sever.
We review the denial of a motion to sever for abuse of
discretion. Debruler v. Commonwealth, 231 S.W.3d 752
(Ky. 2007); Roark v. Commonwealth, 90 S.W.3d 24 (Ky.
2002), and we will not grant relief unless the refusal to
sever prejudiced the defendant. Parker v. Commonwealth, 291 S.W.3d 647, 657 (Ky. 2009).
Kentucky Rule of Criminal Procedure RCr 9.12
permits two or more indictments to be consolidated for
trial if joinder of the offenses in a single indictment
would have been proper under RCr 6.18. That rule
permits offenses to be joined where “the offenses are of

84a
the same or similar character or are based on the same
acts or transactions connected together or constituting
part of a common scheme or plan.” However, RCr 9 .16
requires a trial court to order separate trials “[i]f it appears that a defendant or the Commonwealth is or will
be prejudiced by a joinder of offenses[.]” This Court
has recognized that ‘“prejudice’ is a relative term” and,
in the context of a criminal proceeding, means only that
which is unnecessary or unreasonably hurtful, given
that having to stand trial is, itself, inherently prejudicial. Ware v. Commonwealth, 537 S.W.2d 174, 176 (Ky.
1976); Romans v. Commonwealth, 547 S .W.2d 128, 131
(Ky. 1977).
Throughout these proceedings, Appellant has argued a particular manner in which he was prejudiced
by joinder of the charges; namely, that his right to testify in his own defense was compromised. While Appellant wished to testify in support of his claim of justification for Stevie Collins’s murder, he wanted to invoke
his privilege not to testify in Christa Wilson’s murder.
This issue has not been much addressed in our cases.
The federal courts, however, under their similar rules
of joinder and severance, have noted that, while courts
zealously guard a defendant’s Fifth Amendment right
not to testify at all, “the case law is less protective of a
defendant’s right to testify selectively.” United States
v. Fenton, 367 F.3d 14, 22 (1 st Cir. 2004). A defendant
who argues for severance on the basis of selective testimony “must make a ‘persuasive and detailed showing
regarding the testimony he would give on the one count
he wishes severed and the reason he cannot testify on
the other counts.’” United States v. McCarther, 596
F.3d 438, 443 (8th Cir. 2010) (quoting United States v.
Possick, 849 F.2d 332, 338 (8th Cir. 1988)). The United
States Circuit Court for the Sixth Circuit has held that

85a
severance is not required unless the defendant “‘makes
a convincing showing that he has both important testimony to give concerning one count and a strong need to
refrain from testifying on the other.”‘ United States v.
Bowker, 372 F.3d 365,385 (6th Cir. 2004), vacated on
other grounds, 543 U.S. 1182 (2005) (quoting United
States v. Martin, 18 F.3d 1515, 1518-19 (10th Cir. 1994)).
Otherwise, “severance would be available to a defendant virtually on demand.” Fenton, 367 F.3d at 23.
This Court reached a similar conclusion in Owens v.
Commonwealth, 572 S.W.2d 415, 416 (Ky. 1977):
[Defendant] argues that he was confounded in
his defense for the reason he wished to testify
as to one charge, but not the others … . This
argument in the absence of other compelling
factors ordinarily is not sufficient to warrant a
severance. Otherwise, it would have the effect
of nullifying the provisions of RCr 9.12, consolidation of offenses for trial.
Here, Appellant has not made a persuasive and detailed showing of “compelling factors” that would justify his selective testimony. He has not shown that his
testimony regarding Stevie Collins’s murder was vital,
as he was able to assert his justification defense
through other witnesses who testified to the victim’s
alleged involvement in the murder of Appellant’s uncle.
And he has made no showing of a strong need to refrain
from testifying with respect to Christa’s murder. See,
e.g., Bowker, supra, and McCarther, supra. The trial
court did not abuse its discretion, therefore, by denying
Appellant’s severance motion on the ground of selective
testimony.
Nor was severance required on the ground that the
two murders were not sufficiently related. A primary

86a
test for determining whether undue prejudice will result from a joinder of offenses is whether evidence necessary to prove one offense would be admissible in a
trial of the other offense. Roark v. Commonwealth,
supra. As noted, a trial court’s decision to join offenses
related in this way will not be disturbed absent an
abuse of discretion. Debruler v. Commonwealth, supra;
Roark, supra. We agree with the Commonwealth that
there was no abuse of discretion here, because the two
murders were based on “transactions connected together.” RCr 6.18.1 Clearly, evidence of Stevie Col1

The dissent focuses on the fact that RCr 6.18 authorizes
joinder of two offenses only if "the offenses are of the same or similar character or are based on the same acts or transactions connected together or constituting parts of a common scheme or plan,"
but says nothing about the propriety of joinder hinging on whether
it would be prejudicial or not. The dissent's emphasis on RCr 6.18
misconceives our standard of review. If we reviewed severance
rulings de novo, then we would indeed begin where the trial court
begins and ask anew whether RCr 6.18's conditions had been met.
In fact, however, "we may only reverse a trial court's joinder decision upon 'a showing of prejudice and clear abuse of discretion."'
Parker v. Commonwealth, 291 S.W.3d 64 7, 657 (Ky. 2009) (quoting
from Jackson v. Commonwealth, 20 S.W.3d 906,908 (Ky. 2000)).
This is why our severance cases almost uniformly begin and end
with an analysis of prejudice and is likely why the case upon which
the dissent relies, Sebastian v. Commonwealth, 623 S.W.2d 880
(Ky. 1981), has not been cited a single time in this context in the
nearly thirty years since it was decided. Under our standard of
review, a trial court's misapplication of RCr 6.18 that did not result
in prejudice to the defendant would amount at most to a harmless
error. Moreover, when considering the trial court's application of
RCr 6.18, the question on review is not whether we think the
joined offenses "are of the same or similar character or are based
on the same acts or transactions connected together or constituting parts of a common scheme or plan," but rather whether a reasonable person could have so concluded. The dissent thinks not,
apparently, but in arriving at that conclusion it errs in asserting
that the evidence before the trial court contained nothing to sug-

87a
lins’s murder would have been admissible in a separate
trial of Christa Wilson’s murder, since the alleged motive for the second murder was Appellant’s desire to
cover up the first murder by eliminating one who had
witnessed it. KRE 404(b) (evidence of other bad acts is
admissible to prove motive.); Tucker v. Commonwealth., 916 S .W.2d 181 (Ky. 1996) (evidence that defendant had shot a witness of a prior crime was admissible to show that charged shooting was similarly motivated.). Similarly, evidence of Christa’s murder would
have been admissible in a separate trial of Stevie Collins’s murder, since evidence that one has attempted to
cover up a crime is circumstantial proof of one’s consciousness of guilt regarding that crime. KRE 404(b)
(evidence of other bad acts is admissible to prove intent.); Major v. Commonwealth, 177 S.W.3d 700 (Ky.
2005) (evidence that defendant beat a potential witness
was admissible as proof of consciousness of guilt.); Foley v. Commonwealth, 942 S.W.2d 876, 887 (Ky. 1996)
(“Any attempt to suppress a witness’ testimony ... is
gest that Appellant's motivation "was in any way connected to the
murder of Steve Collins." On the contrary, in making its ruling the
trial court had before it the Commonwealth's representations,
which the defense did not dispute, that Christa Wilson and two
other women witnessed Appellant murder Steve Collins, which
fact alone connects the two crimes and permits a reasonable inference of motive. The court also heard that shortly prior to her
death Wilson confided to a friend that Appellant had threatened
her and warned her not to divulge what she knew and that she was
afraid of him. Further, the court heard that after Wilson's murder,
another of the women who witnessed Steve Collins's murder was
brutally assaulted and left for dead by Appellant's close relatives.
The Commonwealth's theory of Christa's murder, therefore, was
hardly spun out of whole cloth, as the dissent suggests, and the
trial court's conclusion that the two murders were transactions
sufficiently "connected together" to satisfy RCr 6.18 was not arbitrary or unreasonable.

88a
evidence tending to show [a consciousness of] guilt””).
The trial court did not abuse its discretion, therefore,
by deeming the two murders sufficiently related to be
tried together.
II. Natasha Saylor’s Statement Concerning a Prior
Assault Against Her Did Not Warrant a Mistrial.
Prior to trial, Appellant filed a motion to exclude
evidence of Natasha Saylor’s assault. Four male relatives of Appellant had attacked Ms. Saylor and slashed
her throat. Three of her attackers were convicted and
the fourth negotiated a plea. Although Appellant and
his father were referenced throughout the assault trial,
neither was charged for the offense. Accordingly, Appellant’s motion sought to “exclude any mention of or
evidence associated with the Natasha Saylor assault
trial, as well as the mention of [the four individuals
charged with the assault] and their respective convictions.”2
At a hearing on the motion, the prosecutor stated
that he did not have a problem with the request “unless
they [defense counsel] were to open a door through
their cross-examination ... we’ll stay away from that,
we don’t have any problem with it.” Defense counsel
responded that she intended to probe Saylor’s mental
and physical state and that what she was asking the
court to preclude was “her explaining how she got that
way ... I mean I don’t know that I can keep her from
expressing her opinion as to why she thinks that happened.” The Commonwealth responded that if defense
2

Although the parties repeatedly referred to the case as an
"assault trial" even though the discussions were outside the hearing of the jury, the charges and resulting convictions consisted of
attempted murder and intimidating a witness. See Hatfield v.
Commonwealth, 250 S.W.3d 590 (Ky. 2008).

89a
counsel’s questions resulted in mention of the assault
and resulting injuries, he should be able to follow up by
asking Saylor how she sustained those injuries. Recognizing that the primary concern was that defense counsel’s question would open the door to the testimony and
that the Commonwealth otherwise agreed to the exclusion of the evidence, the trial court denied the motion
and cautioned defense counsel not to open the door to
the very evidence she wished to exclude.
As anticipated, Saylor referenced the assault at trial in response to one of defense counsel’s questions.
Specifically, defense counsel asked Saylor, ‘‘You indicated that you were scared for your life. Who were you
afraid of?” Saylor responded, “To be ,honest, I was
afraid of the whole family. That’s why I never told anyone until my throat got cut.” Defense counsel immediately moved for a mistrial. The Commonwealth responded that defense counsel’s question opened the
door, while defense counsel contended that Saylor’s answer was not responsive to her question. The trial
court denied the request for a mistrial and defense
counsel declined an admonition, opining that it would
just draw more attention to the testimony. The trial
court did rule, however, that Saylor’s brief reference to
the assault did not open the door for the Commonwealth to pursue the matter. The matter was not mentioned again and it was never revealed that the assault
had been committed by relatives of Appellant.
Under these circumstances, we cannot agree with
Appellant’s contention that Saylor’s comment was
grounds for a mistrial. “A mistrial is an extreme remedy and should be resorted to only when there appears
in the record a manifest necessity for such an action or
an urgent or real necessity.” Graves, 285 S.W.3d 734,
737 (Ky. 2009) (quoting Bray v. Commonwealth, 177

90a
S.W.3d 741, 752 (Ky. 2005)). The trial court did not
abuse its discretion in refusing to declare a mistrial.
III. The Admission of Hearsay Statements Attributed
to Harold Wayne Collins Did Not Constitute Reversible Error
During direct examination, April Sizemore Collins
referenced a message that Appellant’s father, Harold
Wayne Collins, had left on her cell phone voicemail.
When she began to repeat the message, “They’ve already found one body,” defense counsel objected on
hearsay grounds. Although the trial court overruled
the objection, the Commonwealth instructed April to
refrain from repeating the contents of any threats and
to merely answer whether she had been threatened.
On cross-examination, however, defense counsel elicited the content of the voicemail. Specifically, defense
counsel asked April, “Harold Wayne told you that
they’d already found one body up on Hector, and asked
you if you wanted to be next, didn’t he?” April responded affirmatively and defense counsel continued,
“And that’s where Christa Gail Wilson’s body was
found wasn’t it?” Again, April answered affirmatively.
Under these circumstances, we must agree with
the Commonwealth that defense counsel on crossexamination opened a door that had been willingly
closed by the Commonwealth. Appellant may not argue error in admission of testimony that he intentionally elicited.
IV. Allowing the Victim’s Wife to Remain in the
Courtroom Did Not Constitute Reversible Error.
Upon the request of a party, KRE 615 mandates
that the trial court exclude witnesses from the courtroom except when they are testifying. However, the

91a
Rule does not authorize the exclusion of 1) a party; 2)
“[a]n officer or employee of a party which is not a natural person designated as its representative by its attorney;” or 3) “[a] person whose presence is shown by a
party to be essential to the presentation of the party’s
cause.” KRE 615. Commonly, a lead detective or investigator is allowed to remain in the courtroom under
the second exception. Justice v. Commonwealth, 987
S.W.2d 306 (Ky.1998); Dillingham v. Commonwealth,
995 S.W.2d 377 (Ky. 1999). In this case, two primary
detectives remained in the courtroom without objection. The Commonwealth also requested that Stevie
Collins’s widow, Donna Collins, be allowed to remain in
the courtroom as a “victim’s representative.” Although
Appellant initially objected, both parties expressed satisfaction when the trial court ruled that Donna Collins
could remain in the courtroom only on the condition
that the Commonwealth minimize her exposure to other witnesses’ testimony by calling her promptly. Although the Commonwealth did not want to call the victim’s widow as his first witness, he did agree that she
would be his second or third witness. At this point, the
record reveals that Appellant waived any objection to
Donna Collins remaining in the courtroom.
Subsequently, however, the Commonwealth informed the court that because it did not want to subject
Donna Collins to the stress of testifying, it had decided
not to call her at all, but offered for the defense to go
ahead and do so, in keeping with the previous agreement and ruling that she could remain in the courtroom
so long as she testified promptly. Appellant declined to
call her “out-of-order,” and instead renewed his objection to Donna Collins’s remaining in the courtroom, reiterating that KRE 615 provided no exemption for a
“victim’s representative.” While Appellant’s counsel

92a
expressed a personal understanding of Donna Collins’s
desire to remain in the courtroom, she unequivocally
objected on the record. Thus, the Commonwealth’s
contention that Appellant waived any objection is unsupported by the record.
This Court addressed a similar factual scenario in
Hatfield v. Commonwealth, supra, wherein the victim’s
grandfather was permitted to remain in the courtroom
even though he was a witness for the Commonwealth
and did not testify until the end of the Commonwealth’s
case-in-chief. The Court held that a “victim’s representative” may fall within the third exception to KRE
615 in certain circumstances, but there must be a showing that the witness is “essential to the presentation of
the party’s cause.” KRE 615(3). The Hatfield Court
reasoned that failure to exclude the victim’s grandfather from the courtroom was error because the required showing had not been made. Likewise, no such
showing was made to justify Donna Collins’s presence
in the court. However, the Hatfield Court proceeded to
deem the error harmless. In so doing, the Court distinguished Mills v. Commonwealth, 95 S.W.3d 838 (Ky.
2003), the case upon which Appellant relies. Mills held
that permitting a robbery witness to remain in the
courtroom constituted reversible error. However, the
witness in Mills was the sole witness to the robbery,
rendering his credibility of critical importance. In contrast, the testimony of the victim’s grandfather in Hatfield was largely duplicative and was not “of an indispensable nature to the outcome of the trial.” Hatfield,
250 S.W.3d at 595. Because the circumstances here are
more akin to those in Hatfield, Appellant’s reliance on
Mills is unpersuasive.
Donna Collins remained in the courtroom for the
entire proceeding and was called as Appellant’s first

93a
defense witness. She testified that her deceased husband did not carry guns regularly, that she had never
heard that Appellant’s father blamed Stevie for Appellant’s uncle’s murder, and that Stevie was righthanded.
Before this Court, Appellant argues that allowing
Donna Collins to remain in the courtroom enabled her
to conform or adjust her testimony based on the testimony she had heard during the Commonwealth’s casein-chief. Most damning, he argues, was Donna Collins’s
testimony that Stevie was right-handed, given the prior testimony that gunshot residue was detected on
Stevie’s left hand. Nevertheless, we are persuaded
that any error was harmless. Donna Collins did not
witness the murder and her testimony was merely to
offer background information on the victim. As the
Commonwealth points out, it is highly unlikely that she
would have testified differently had she not heard the
other witnesses, particularly with regard to her testimony that the victim was right-handed.
CONCLUSION
Appellant has failed to show that he was unduly
prejudiced by joinder of the two murder charges. Further, Appellant is not entitled to relief based on Natasha Saylor’s brief and vague reference to a prior assault. Nor is he entitled to relief based on hearsay evidence that he elicited. Finally, although the required
showing was not made to support the decision to allow
Donna Collins to remain in the courtroom, the error
was harmless. Accordingly, Appellant’s convictions are
affirmed.
Minton, C.J.; Abramson, Cunningham, and Scott,
JJ., concur. Venters, J., dissents by separate opinion in
which Noble and Schroder, JJ., join.

94a
VENTERS, J., DISSENTING: I respectfully decline to join the Majority opinion because I disagree
with its conclusion that Appellant’s two murder charges were properly tried together, and therefore I dissent.
The Majority focuses on the question of whether
the trial erred in “refusing to sever the two murder
charges.” In so doing, it fails to give appropriate consideration to the more fundamental issue of whether
the two charges were properly joined in the first place.
RCr 9.16 requires severance of the charges when a
joint trial will be prejudicial. However, RCr 9.16’s requirement for a finding of prejudice has no application
whatsoever unless the requirements of RCr 6.18 have
first been satisfied. Improperly joined charges cannot
be consolidated for trial, notwithstanding the presence
or absence of prejudice. Sebastian v. Commonwealth,
623 S.W. 2d 880, 881 (Ky. 1981).
The inquiry is controlled by RCr 6.18, which in conjunction with RCr 9.12, provides that two or more offenses may be joined for a common trial only if they are
“of the same or similar character” or “are based on the
same acts or transactions connected together or constituting parts of a common scheme or plan.” The Majority opinion brushes quickly past the issue, stating simply, “We agree with the Commonwealth that there was
no abuse of discretion here because the two murders
were based on .’transactions connected together.” (emphasis added).
There is no evidence that the Steve Collins’ murder
was in any way connected to the murder of Christa
Wilson nearly six weeks later. Steve Collins arrived
for an unexpected visit at Harold Collins’ home and despite his apparently friendly approach, was spontane-

95a
ously shot and wounded by Harold Collins, whose motivation was alleged to be revenge. Appellant, impelled
simply by the desire to finish what Harold had started,
obtained a gun and shot Collins several more times,
killing him. Everyone present at the scene, including
Harold and Appellant, promptly left the area, leaving
the body where it fell at Harold’s front porch. Christa,
Appellant’s girlfriend, who had been present when Collins was killed, left the scene with Appellant and continued her relationship with him until her death several
weeks later.
While there is sufficient circumstantial evidence to
conclude that Appellant killed Christa, the only thing
that connects these two crimes is the Commonwealth’s
supposition, its theory, on why she was killed. There is
absolutely no evidence that suggests his motivation
was in any way connected to the murder of Steve Collins. The Commonwealth’s theory is a mere possible
explanation with no evidentiary link that connects together the two murders.
The murder of a young woman at the hands of her
boyfriend is, unfortunately, an all too common occurrence and the proof that Appellant did it is hardly dependant upon the motivation theorized by the Commonwealth. I am aware of no authority in the form of
appellate decisions or otherwise, that condones the
joinder of dissimilar crimes for a common trial simply
because it is the Commonwealth’s theory, unsupported
by any evidentiary link, that the two crimes are “transactions connected together.” The only connection between them is that Appellant was charged with both.
Thus, by the rationale of the majority opinion, two
charges against a single defendant may always be consolidated for a joint trial so long as the Commonwealth’s subjective theory, rather than its objective ev-

96a
idence, supplies the connecting link. For the same reasons, the two murders cannot reasonably be seen as
parts of “a common scheme or plan.”
The Commonwealth’s whole theory of the case precludes joinder on the grounds that the two murders
were of the “same or similar character.” The Steve
Collins’ murder was an unplanned spontaneous event,
instigated by another (Harold) for revenge, in which
Appellant subsequently took a subordinate but decisive
role. According to the Commonwealth’s theory, and
not the Commonwealth’s evidence, Christa’s murder
was premeditated to eliminate a witness. No one even
suggests that two murders were the result of the “the
same acts.”
The most frequently stated interpretation of proper joinder under of RCr 6.18 is found in the cases cited
in the Majority opinion3, and it holds that joinder is
proper when the two crimes are closely related in character, circumstance and time. The two murders involved here conform to none of those factors. Joining
them for trial with no evidentiary connection between
them was not authorized by the Rules of Criminal Procedure. Moreover, Appellant was deprived of a fair trial by the inherently prejudicial joinder of two crimes
that were not closely related in character, circumstance
or time.
The premise for the majority’s conclusion that Appellant was not prejudiced by the last-minute decision
to try him simultaneously for two murders instead of
3

Debruler v. Commonwealth, 231 S.W.3d 752, 760 (Ky. 2007)
and Tucker v. Commonwealth, 916 S.W.2d 181, 184 (Ky. 1996) (reversed on other grounds in Lanham v. Commonwealth, 171
S.W.3d 14 (Ky.2005)).

97a
one rests upon its conception that “prejudice is a relative term.” It completes the analysis with a circular
argument and an illusory justification for the joinder.
The majority reasons: Because it was proper to try
Appellant for both murders simultaneously, he was not
unnecessarily or unreasonably prejudiced; because he
was not prejudiced by the trial, the two murder charges were properly consolidated.
Noble and Schroder, JJ., join.
COUNSEL FOR APPELLANT:
Shelly R. Fears
Assistant Public Advocate
Department of Public Advocacy
100 Fair Oaks Lane, Suite 302
Frankfort, KY 40601-1133
COUNSEL FOR APPELLEE:
Jack Conway
Attorney General
Joshua D. Farley
Assistant Attorney General
Attorney General’s Office
Office of Criminal Appeals
1024 Capital Center Drive
Frankfort, KY 40601-8204

